<html>
<title> - VISA OVERSTAYS: A GAP IN THE NATION'S BORDER SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


          VISA OVERSTAYS: A GAP IN THE NATION'S BORDER SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2017

                               __________

                           Serial No. 115-17

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                   U.S. GOVERNMENT PUBLISHING OFFICE                    
27-610 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781f0817381b0d0b0c101d1408561b171556">[email&#160;protected]</a> 




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                  Martha McSally, Arizona, Chairwoman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Jeff Duncan, South Carolina          J. Luis Correa, California
Lou Barletta, Pennsylvania           Val Butler Demings, Florida
Will Hurd, Texas                     Nanette Diaz Barragan, California
John H. Rutherford, Florida          Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
     Alison Northrop, Minority Subcommittee Staff Director/Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Martha McSally, a Representative in Congress From 
  the State of Arizona, and Chairwoman, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security..............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Mr. Michael Dougherty, Assistant Secretary, Border, Immigration, 
  and Trade, Office of Policy, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................     8
Mr. John Wagner, Deputy Executive Assistant Commissioner, U.S. 
  Customs and Border Protection, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    17
  Joint Prepared Statement.......................................     8
Mr. Clark Settles, Assistant Director, National Security 
  Division, Homeland Security Investigations, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    19
  Joint Prepared Statement.......................................     8
Mr. John Roth, Inspector General, Office of the Inspector 
  General, U.S. Department of Homeland Security:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

 
         VISA OVERSTAYS: A GAP IN THE NATION'S BORDER SECURITY

                              ----------                              


                         Tuesday, May 23, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Martha McSally 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives McSally, Rogers, Duncan, Barletta, 
Rutherford, Vela, Richmond, Correa, Demings, and Barragan.
    Ms. McSally. The Committee on Homeland Security, 
Subcommittee on Border and Maritime Security will come to 
order. The subcommittee is meeting today to examine visa 
overstays and their impact on National security. Conversations 
about the best way to secure the southern land border have been 
the principal focus of the media, Congress, and the 
administration for the last months.
    Today I want to transition to an equally important but 
often overlooked aspect of our border and National security, 
visa overstays. Yesterday DHS released the official fiscal year 
2016 overstay numbers, and this year they expanded the number 
of visa overstay categories to include students and other non-
immigrant visa holders.
    I want to commend DHS for producing a more accurate picture 
of the challenge, but the numbers are stark. CBP calculated 
that we had nearly 740,000 people overstay their visas at some 
point in fiscal year 2016. Even using CBP's more generous 
numbers that account for some of those overstays who eventually 
leave, albeit late, we had almost 630,000 overstays still in 
the country at the end of last fiscal year.
    Over more time, as more and more overstays left, the number 
gets smaller and by January of this year, we still had 544,000 
overstays from fiscal year 2016 suspected of being in the 
country, still an incredibly large number. To put that number 
in context, we only apprehended 310,000 unique individuals 
crossing the land border illegally last year, meaning we had 
almost twice as many overstays as people apprehended at the 
land Southern Border.
    It is probably time to jettison the conventional wisdom 
that visa overstays make up about 40 percent of the illicit 
flow. With this year's number of border apprehensions at a 
record low, visa overstays are a much, much bigger problem than 
it has been historically.
    So why does closing this gap in our border security 
defenses matter? Well, there are unidentified National security 
and public safety risks in a population that large, and visa 
overstays have historically been the primary means for 
terrorist entry into the United States. Time and time again, 
terrorists have exploited the visa system by legally entering 
America.
    The 9/11 Commission put it this way, ``for terrorists, 
travel documents are as important as weapons.'' The 
Commission's focus on travel documents was not surprising. 
Since the 1993 World Trade Center bombing, terrorists have 
abused the hospitality of the American people to conduct 
attacks here at home.
    Mahmud Abouhalima, an Egyptian convicted of the 1993 World 
Trade Center bombing, worked illegally in the United States as 
a cab driver after his tourist visa expired. At least four of 
the 9/11 hijackers overstayed their visas or were out of 
status, a missed opportunity to disrupt the attacks that killed 
nearly 3,000 of our fellow Americans.
    Among the most important weaknesses the attackers exploited 
was the porous ``outer ring of our border security.'' The 
hijackers passed through U.S. border security a combined total 
of 68 times without arousing any suspicion.
    More recently, Amine El-Khalifi, attempted to conduct a 
suicide attack on the U.S. Capitol in 2012. He had been in the 
country since 1999 on a tourist visa but never left.
    That is why I wanted to hold this hearing today. I do not 
want the threat posed by visa overstays to get drowned out by 
the challenges we face on the southern land border. We can chew 
gum and walk at the same time.
    We have to keep the DHS focused on both problem sets, 
illicit traffic flow that crosses the land border and the 
growing problem of visa overstays. In order to tackle this 
challenge, the Department has to first identify those who 
overstay their visa in the first place.
    A mandate to electronically track entries and exits from 
the country has been in place for more than 20 years. A mandate 
for a biometrically-based entry-exit system has been a 
requirement for 12 years.
    CBP has made, in fits and starts, only marginal progress 
when it comes to the biometric exit. There have been a series 
of exit pilot projects at the Nation's air, land, and sea ports 
over the last 10 years, but no plan to ever implement a 
biometric exit capability was seriously considered by CBP and 
the Department.
    Recent Executive Orders make it clear that, finally, 
finishing the exit system is a priority for this 
administration. Building on previous testing and pilots, CBP 
will engage in a series of operational demonstrations with a 
planned roll-out of a facial recognition exit system at some of 
the Nation's largest airports.
    The previous administration committed to a 2018 roll-out of 
a fully operational biometric exit system at the Nation's 
highest-volume airports. I look forward to hearing about the 
plans for exit beyond the operational demonstrations.
    Putting a biometric exit system into place, is as the 9/11 
Commission noted, ``an essential investment in our National 
security.'' Because without a viable biometric exit system, 
visa holders can overstay their visa and disappear in the 
United States, just as four of the 9/11 hijackers were able to 
do.
    In the current high-risk threat environment, it is 
imperative that we place greater emphasis on the visa process 
as a counter-terrorism tool. Once we identify overstays, 
especially those who present National security and public 
safety threats, we must dedicate the resources necessary to 
promptly remove those in the country here illegally. Otherwise, 
we put our citizens at risk unnecessarily.
    The recent report by DHS's Office of Inspector General 
casts significant doubt on ICE's ability to do just that. 
Multiple I.T. systems, stovepipes, and lack of training have 
appeared to hamper the work of our agents.
    According to the OIG, we have a backlog of 1.2 million visa 
overstay cases, and we have wasted manpower chasing leads that 
have either already left the country or have changed their 
immigration status.
    In one instance, an ICE agent spent 50 hours tracking down 
a lead that turned out to not be an overstay after all. We are 
closing cases, thinking a public safety threat has left, when 
in reality they are still here. We have to do better.
    Adding a reliable exit system will be an immediate force 
multiplier that allows National security professionals to focus 
their efforts on preventing terrorist attacks and only spending 
time tracking down people who are still in the country.
    [The statement of Chairman McSally follows:]
                 Statement of Chairwoman Martha McSally
                              May 23, 2017
    Conversations about the best way to secure the Southern land border 
have been the principal focus of the media, Congress, and the 
administration for the last few months. Today, I want to transition to 
an equally important, but often overlooked, aspect of our border and 
National security: Visa overstays.
    Yesterday, DHS released the official fiscal year 2016 overstay 
numbers and this year they expanded the number of visa overstay 
categories to include students and other non-immigrant visa holders. I 
want to commend DHS for producing a more accurate picture of the 
challenge, but the numbers are stark.
    CBP calculated that we had nearly 740,000 people overstay their 
visa at some point in fiscal year 2016. Even using CBP's more generous 
numbers that account for some of those overstays who eventually leave, 
albeit late, we had almost 630,000 overstays still in the country at 
the end of the last fiscal year.
    Over time, as more and more overstays leave that number gets 
smaller, and by January of this year we still had 544,000 overstays 
from fiscal year 2016 suspected of being in the country--still an 
incredibly large number.
    To put that number into context we only apprehended 310,000 unique 
individuals crossing the land border illegally last year. Meaning we 
had almost twice as many overstays as people apprehended at the land 
border.
    It's probably time to jettison the conventional wisdom that visa 
overstays make up about 40% of the illicit flow. With this year's 
number of apprehensions at record lows, visa overstays are a much, much 
bigger problem than it has been historically.
    So, why does closing this gap in our border security defenses 
matter?
    There are unidentified National security and public safety risks in 
a population that large, and visa overstays have historically been the 
primary means for terrorist entry into the United States.
    Time and time again, terrorists have exploited the visa system by 
legally entering America. The 9/11 Commission put it this way: ``For 
terrorists, travel documents are as important as weapons.'' The 
Commission's focus on travel documents was not surprising. Since the 
1993 World Trade Center bombing, terrorists have abused the hospitality 
of the American people to conduct attacks here at home.
    Mahmud Abouhalima, an Egyptian convicted of the 1993 World Trade 
Center bombing, worked illegally in the United States as a cab driver 
after his tourist visa had expired.
    At least four of the 9/11 hijackers overstayed their visas, or were 
out of status--a missed opportunity to disrupt the attacks that killed 
nearly 3,000 of our fellow Americans.
    And among the most important weaknesses the attackers exploited was 
the porous ``outer ring of border security.'' The hijackers passed 
through U.S. border security a combined total of 68 times without 
arousing suspicion.
    More recently, Amine el-Khalifi attempted to conduct a suicide 
attack on the U.S. Capitol in 2012. He had been in the country since 
1999 on a tourist visa, but never left.
    That is why I wanted to hold this hearing today.
    I do not want the threat posed by visa overstays to get drowned out 
by the challenges we face on the Southern land border.
    We can chew gum and walk at the same time.
    We have to keep the DHS focused on both problem sets--illicit 
traffic that crosses the land border and the growing problem of visa 
overstays.
    In order to tackle this challenge, the Department has to first 
identify those who overstay their visa in the first place.
    A mandate to electronically track entries and exits from the 
country has been in place for more than 20 years, and a mandate for a 
biometrically-based entry-exit system has been a requirement for 12 
years.
    CBP has made, in fits and starts, only marginal progress when it 
comes to biometric exit. There have been a series of exit pilot 
projects at the Nation's air, land, and sea ports over the last 10 
years, but no plan to ever implement a biometric exit capability was 
seriously considered by CBP and the Department.
    Recent Executive Orders make it clear that finally finishing the 
exit system is a priority for this administration.
    Building on previous testing and pilots, CBP will engage in a 
series of operational demonstrations with a planned roll-out of a 
facial recognition exit system at some of the Nation's largest 
airports. The previous administration committed to a 2018 roll-out of a 
fully operational biometric exit system at the Nation's highest volume 
airports--I look forward to hearing about the plans for exit beyond the 
operational demonstrations.
    Putting a biometric exit system in place is, as the 9/11 Commission 
noted, ``an essential investment in our National security,'' because 
without a viable biometric exit system, visa holders can overstay their 
visa, and disappear into the United States; just as four of the 9/11 
hijackers were able to do.
    In the current high-risk threat environment, it is imperative that 
we place greater emphasis on the visa process as a counterterrorism 
tool.
    And once we identify overstays, especially those who present 
National security and public safety threats, we must dedicate the 
resources necessary to promptly remove those in the country illegally--
otherwise we put our citizens at risk unnecessarily.
    The recent report by DHS's Office of Inspector General cast 
significant doubt on ICE's ability to do just that. Multiple IT 
systems, stovepipes, and lack of training have appeared to hamper the 
work of our agents.
    According to the IG, we have a backlog of 1.2 million visa overstay 
cases and we have wasted manpower chasing leads that have either 
already left the country, or have changed their immigration status.
    In one instance an ICE agent spent 50 hours tracking down a lead 
that turned out not to be an overstay, or we are closing cases thinking 
that a public safety threat has left, but in reality they are still 
here.
    We have to do better.
    Adding a reliable exit system will be an immediate force multiplier 
that allows National security professionals to focus their efforts on 
preventing terrorist attacks, and only spending time tracking down 
people who are still in the country.

    Ms. McSally. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Texas, Mr. Vela, for a 
statement he may have.
    Mr. Vela. I thank Chairwoman McSally for holding today's 
hearing on the border security risks posed by visa overstays. 
While the White House focuses its border security rhetoric on 
building a wall along the Southern Border, attention and 
resources should be paid to issues like overstays.
    I represent border communities that know first-hand the 
security challenges we face along the border, but to keep our 
focus mainly on walls is a vulnerability in and of itself. The 
approximately 740,000 individuals who overstayed in fiscal 2016 
is a far greater number than the 331,000 individuals who were 
apprehended along the U.S.-Mexico border that year. I believe 
these figures illustrate the challenge overstays pose.
    Over the last few years, DHS renewed its efforts toward a 
biometric entry-exit system. I look forward to hearing from our 
panel today about its progress and development and plans for 
the eventual deployment of that system. I hope to hear about 
how the Department plans to address biometric exit at our land 
borders, particularly along the Mexican border.
    Unlike Canada, Mexico currently does not have the entry 
infrastructure, technology, and processes necessary to share 
traveler information with the United States. I hope to hear 
from ICE about how it prioritizes individuals who have 
overstayed and may pose a National security or public safety 
threat.
    With limited resources, we must first address those who may 
do us harm. Deploying biometric exit at ports of entry and 
addressing overstays is no easy task, but it is a necessary 
part of ensuring meaningful border security.
    I thank the witnesses for joining us today and yield back 
the balance of my time.
    Ms. McSally. The gentleman yields back. Other Members of 
the committee are reminded that opening statements may be 
submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 23, 2017
    This committee has long conducted oversight of DHS's activities 
aimed at addressing overstays and deploying a biometric entry-exit 
system to identify those who do not depart this country at the 
appropriate time.
    Deploying such a system was a key recommendation of the 9/11 
Commission and has been mandated repeatedly on a bi-partisan basis by 
Congress.
    The previous administration's commitment to deploying a biometric 
exit system at our Nation's busiest airports starting in 2018, coupled 
with Congress authorizing up to $1 billion over the next decade to pay 
for such a system, was an essential step towards this goal.
    I look forward to hearing from our Customs and Border Protection 
and DHS Office of Policy witnesses today about their progress toward 
deploying biometric exit and whether they remain committed to the 2018 
time line. As part of the effort to address overstays, the Department 
released its first Entry/Exit Overstay Report in January 2016.
    The 2016 report concluded that over 527,000 individuals, or 
approximately 1 percent visitors entering the United States by air, 
overstayed in fiscal year 2015.
    While only a small fraction of these visitors pose a security or 
safety concern, it is worth noting this overstay figure far exceeds the 
approximately 331,000 individuals apprehended entering the United 
States along the Southern Border over the same time period.
    President Trump is so busy trying to build his ``big, beautiful 
wall'' in a misguided attempt to curb illegal immigration, I am 
concerned his administration will lose focus on dealing with those who 
come into the United States on a visa, through the proverbial front 
door, and remain in this country.
    This committee is very interested in the fiscal year 2016 overstay 
report, released just yesterday, and what lessons can be learned about 
how to address overstays who may pose a security concern.
    Though the scope of this most recent report was broader in that it 
included several more nonimmigrant visas categories, it would appear 
that the result is not significantly different from last year's 
analysis.
    Of the 50.4 million air and sea nonimmigrant visitors who were 
expected to depart in fiscal year 2016, 739,478 individuals were 
suspected to have overstayed, which amounts to a 1.47 percent overstay 
rate.
    I hope to hear more about a recent DHS Office of Inspector General 
report that concluded DHS IT systems do not effectively support ICE 
visa tracking operations, requiring ICE personnel responsible for 
investigating overstays to manually piece together information from 
over a dozen systems and databases throughout the Department.
    Identifying and responding to overstays who may pose a security 
concern is a difficult enough task without technology being an 
impediment.
    Moreover, the OIG argues that the information used by DHS to 
produce its annual report to Congress may underestimate the total 
number and rate of visa overstays in the country.
    I want to thank the Inspector General for participating in today's 
hearing to speak to this technology concern, which is pervasive across 
the Department, and to share recommendations on how DHS can improve its 
overstay estimates.
    I also hope to hear from our Immigration and Customs Enforcement 
(ICE) witness about their on-going efforts, using existing systems, to 
identify and address overstays who pose a National security or public 
safety concern.
    The Department, with support from Congress, has taken unprecedented 
measures in recent years to secure the borders between the ports of 
entry.
    Rather than spend billions on a border wall boondoggle, DHS must 
redouble its efforts to address those who enter America legally and 
overstay, particularly when they pose a security concern.

    Ms. McSally. We are pleased to be joined today by four 
distinguished witnesses to discuss this important topic.
    Mr. Michael Dougherty is the assistant secretary for Border 
Immigration and Trade Policy at the Department of Homeland 
Security. Mr. Dougherty previously served in DHS as a 
Citizenship and Immigration Service ombudsman and a senior 
policy advisor for immigration with the Border and 
Transportation Security Directorate.
    Mr. Dougherty's Federal experience also includes service as 
legislative counsel on the personal staff of Senator Jon Kyl 
and on the staff of the Subcommittee on Terrorism, Technology, 
and Homeland Security within the Senate Judiciary Committee.
    Mr. John Wagner is the deputy executive assistant 
commissioner for the U.S. Customs and Border Protection Office 
of Field Operations. Mr. Wagner formerly served as executive 
director of Admissibility and Passenger Programs with 
responsibility for all traveler admissibility-related policies 
and programs, including the Trusted Traveler Program, the 
Electronic System for Travel Authorization, the Immigration 
Advisory Program and the Fraudulent Document Analysis Unit.
    Mr. Clark Settles is the assistant director for the 
National Security Investigations Division within the Homeland 
Security Investigations. In this capacity, he is responsible 
for strategic planning, National policy implementation, and the 
development and execution of operational initiatives. 
Additionally, Mr. Settles oversees HSI's National security 
programs, which include joint terrorism task forces and the 
visa security program.
    Mr. John Roth became the inspector general for the 
Department of Homeland Security in March 2014. Mr. Roth's long 
record of public service includes time at the Food and Drug 
Administration, where he served as director of the Office of 
Criminal Investigations and the Department of Justice, where, 
among many positions, he served as section chief for the 
Criminal Division's Narcotic and Dangerous Drug section.
    The witnesses' full written statements will appear in the 
record.
    The Chair now recognizes Mr. Dougherty for 5 minutes to 
testify.

 STATEMENT OF MICHAEL DOUGHERTY, ASSISTANT SECRETARY, BORDER, 
 IMMIGRATION, AND TRADE, OFFICE OF POLICY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Dougherty. Chairwoman McSally, Ranking Member Vela, and 
distinguished Members of the subcommittee, thank you for the 
opportunity to appear today to discuss work in progress at the 
Department of Homeland Security, to identify, report, and 
address overstays.
    Some 50 million non-immigrant visitors enter the United 
States each year. They enter for business, to study, to see 
family or loved ones or to vacation here. The United States 
welcomes these visitors while recognizing that it is imperative 
that they depart the country when their visas or period of 
authorized admission expires.
    Our ability to identify foreign nationals who overstay 
their visit is important for numerous reasons. Chief among 
them, we need to determine whether individuals pose a threat to 
National security or to public safety. We need to protect the 
integrity of our immigration system by removing those who are 
present in violation of law.
    The key way to ensure that the Federal Government has the 
means of accurately determining the presence of unlawful 
overstays in the United States is through a biometric exit 
system that will provide a high level of assurance when a 
visitor has left the country.
    As most of us know, biometric exit has been a Federal 
objective for many years. It is a priority for this 
administration. In his Executive Order on March 6, the 
President directed DHS to expedite the completion and 
implementation of a biometric entry-exit tracking system for 
in-scope travelers to the United States, as recommended by the 
9/11 Commission.
    Yesterday, the Department released the fiscal year 2016 
entry-exit overstay report. It contains new data that was 
unavailable last year when the fiscal year 2015 report was 
issued. The fiscal year 2016 report has been expanded to 
include foreign students, exchange visitors, and numerous other 
classes of non-immigrants.
    DHS's ability to provide new analysis on these non-
immigrant classes results from improvements made by DHS in 
expanding its data collection capabilities. The fiscal year 
2016 report reflects that 98.53 percent of in-scope, non-
immigrant visitors departed the United States on time and 
abided by the terms of their admission.
    While that is an impressive level of compliance, our data 
indicates that 1.47 percent of non-immigrant visitors 
overstayed their period of admission. That means a total of 
739,478 individuals who were expected to depart the United 
States in fiscal year 2016 did not do so.
    While the number of overstays declined through the end of 
the 2016 calendar year, these overstay numbers are a 
significant concern for Secretary Kelly and for the Department, 
as is reflected in the work performed by our inspector general.
    DHS has collaborated with the State Department, with DOJ 
and with ODNI to improve screening and vetting standards and 
procedures so that we can better determine when non-immigrants 
intend to fraudulently overstay the terms of their visas, which 
is a task assigned to us by the President's Executive Order of 
March 6. Secretary Kelly is also committed to increasing the 
number of ICE agents to undertake enforcement efforts against 
immigration law violators.
    We have a clear commitment and direction from the President 
via the Executive Order to prioritize biometric entry-exit. DHS 
also acknowledges and appreciates the strong support that it 
has continuously received from Congress in favor of 
implementing such a system.
    Building on recent CBP biometric exit pilot programs, on-
going work includes an aggressive effort to reengineer and to 
redesign data handling, to develop next generation facial 
matching capabilities, and to build a back-end communication 
portal to connect with the travel industry and with our 
security partners.
    Ultimately, the goal of our collaborative efforts with 
Government, industry, and international stakeholders is to 
accurately identify passengers and to deliver a seamless and 
secure travel experience. While implementation of a robust and 
effective biometric exit solution will take time, and presents 
significant operational challenges, DHS is aggressively 
advancing the development of a comprehensive biometric exit 
system.
    Our strategy is to expand activities under way in the air 
and sea environment to include our land borders as well. DHS 
will continue to build on the progress made in the fiscal year 
2016 overstay report to identify, report, and take appropriate 
action against those who overstay or violate the terms of their 
admission to the United States.
    Chairwoman McSally, Ranking Member Vela, and distinguished 
Members of the subcommittee, thank you for this opportunity to 
testify today on this important issue, and I look forward to 
answering your questions.
    [The joint prepared statement of Mr. Dougherty, Mr. Wagner, 
and Mr. Settles follows:]
 Joint Prepared Statement of Michael Dougherty, John Wagner, Clark E. 
                                Settles
                              May 23, 2017
                              introduction
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear today to 
discuss the progress the Department of Homeland Security (DHS) is 
making to incorporate biometrics into our comprehensive entry/exit 
system and to identify, report, and address overstays in support of our 
border security and immigration enforcement missions.
    Presently, DHS, in conjunction with the Department of State, 
collects biometrics for most nonimmigrant foreign nationals \1\ and 
checks them against criminal and terrorist watch lists prior to the 
issuance of a visa or lawful entry to the United States. Furthermore, 
the Department has developed new capabilities and enhanced existing 
systems, such as the Automated Targeting System (ATS), to help identify 
possible terrorists and others who seek to travel to the United States 
to do harm.
---------------------------------------------------------------------------
    \1\ The following categories of aliens currently are expressly 
exempt from biometric requirements by DHS regulations: Aliens admitted 
on an A-1, A-2, C-3 (except for attendants, servants, or personal 
employees of accredited officials), G-1, G-2, G-3, G-4, NATO-1, NATO-2, 
NATO-3, NATO-4, NATO-5, or NATO-6 visa; children under the age of 14; 
persons over the age of 79; Taiwan officials admitted on an E-1 visa 
and members of their immediate families admitted on E-1 visas. 8 CFR 
235.1(f)(1)(iv)(A)-(B); and certain Canadian citizens seeking admission 
as B nonimmigrants per 8 CFR 235.1(f)(1)(ii). In addition, the 
Secretary of State and Secretary of Homeland Security may jointly 
exempt classes of aliens from biometric collection requirements and the 
Secretaries of State and Homeland Security, as well as the director of 
the Central Intelligence Agency, may exempt individuals from biometric 
collection requirements. 8 CFR 235.1(f)(1)(iv)(C)-(D).
---------------------------------------------------------------------------
    Today, DHS manages an entry/exit system in the air and sea 
environments that incorporates both biometric and biographic 
components. Applying a risk-based approach, the Department is now able, 
on a daily basis, to identify and target for enforcement action those 
individuals who represent a public safety and/or National security 
threat among visitors who have overstayed the validity period of their 
admission. Moreover, with the recent support of Congress in the 
Consolidated Appropriations Act, 2016 (Pub. L. No. 114-113), and as 
described in the Comprehensive Biometric Entry/Exit Plan provided to 
Congress in April 2016--combined with the clear commitment and 
direction of the President in section 8 of Executive Order 13780, 
Protecting the Nation from Foreign Terrorist Entry into the United 
States--CBP is making significant progress toward implementation of a 
biometric exit system. The Department has also released the fiscal year 
2016 Entry/Exit Overstay Report, which contains significant additional 
data not available in the fiscal year 2015 version, which itself was 
the first report issued in over 20 years.
              existing dhs entry and exit data collection
    A biographic-based entry/exit system is one that matches the 
personally identifying information on an individual's passport or other 
travel documents presented when he or she arrives to and departs from 
the United States. The biographic data contained in the traveler's 
passport includes name, date of birth, document information, and 
country of citizenship. By comparison, a biometric entry/exit system 
matches a biometric attribute unique to an individual (e.g., 
fingerprints, a facial image, or iris image).
How DHS Collects Arrival Information
    For instances in which an individual requires a visa to enter the 
United States, biometric and biographic information captured at the 
time his or her visa application is filed with the Department of State 
(DOS), along with supporting information developed during an interview 
with a consular officer. Additionally, for certain visa categories, the 
individual will have already provided biographic information via a 
petition filed with U.S. Citizenship and Immigration Services (USCIS). 
For individuals seeking to travel to the United States under the Visa 
Waiver Program (VWP), biographic information is captured from an 
intending traveler when they apply for an Electronic System for Travel 
Authorization (ESTA).\2\ If the individual is authorized for travel 
with an ESTA following the required security checks, the individual is 
able to travel to the United States under the VWP. Biometric 
information is captured at the U.S. port of entry (POE) for VWP 
travelers, where the traveler will also be interviewed by a CBP 
officer.
---------------------------------------------------------------------------
    \2\ ESTA collects biographic data and screens passengers against 
various law enforcement and intelligence databases. ESTA has digitized 
the Form I-94 (Arrival/Departure Record) for authorized travelers from 
participating VWP countries.
---------------------------------------------------------------------------
    In the air and sea environment, DHS receives passenger manifests 
submitted by commercial and private aircraft operators and commercial 
sea carriers, which include every individual who actually boarded the 
plane or ship bound for the United States. This information is 
collected in DHS's Advance Passenger Information System (APIS) and all 
non-U.S. citizen data is then sent to the Arrival and Departure 
Information System (ADIS), where it is stored for matching against 
departure records.
    For individuals who apply for a visa at posts supported by ICE's 
Visa Security Program (VSP), biographic information is captured prior 
to DOS review to facilitate the screening and vetting of 100 percent of 
nonimmigrant visa applicants at those posts prior to DOS Consular 
Affairs visa adjudication. As part of VSP operations, additional 
information may be developed by the investigative efforts of 
internationally deployed ICE Special Agents conducting interviews and 
working with domestic based intelligence analysts.
    When a nonimmigrant arrives at a U.S. POE and applies for admission 
to the United States, a CBP officer interviews the traveler regarding 
the purpose and intent of travel, reviews his or her documentation, and 
runs law enforcement checks. If applicable,\3\ CBP collects and matches 
biometrics against previously collected data and stores this data 
within the Office of Biometric Identity Management's (OBIM) Automated 
Biometric Information System (IDENT). If admission is granted, the CBP 
officer will stamp the traveler's passport with a date indicating the 
traveler's authorized period of admission. Based on electronic 
information already in DHS's systems, CBP electronically generates a 
Form I-94, Arrival/Departure Record that the traveler can print 
remotely to provide evidence of legal entry or status in the United 
States. The form also indicates how long the individual is authorized 
to stay in the United States.
---------------------------------------------------------------------------
    \3\ Supra note 1.
---------------------------------------------------------------------------
How DHS Collects Departure Information
    The United States has a fully functioning biographic exit system in 
the air and sea environments. Similar to the entry process, DHS also 
collects APIS passenger manifests submitted by commercial and private 
aircraft operators and commercial sea carriers departing the United 
States. Carriers and operators are required by regulations promulgated 
under the Trade Act of 2002 (Pub. L. No. 107-210) to report biographic 
and travel document information to DHS for those individuals who are 
physically present on the aircraft or sea vessel at the time of 
departure from the United States and not simply for those who have made 
a reservation or are scheduled to be on board. Since 2005, collection 
of this information has been mandatory, and compliance by carriers is 
nearly 100 percent. DHS monitors APIS transmissions to ensure 
compliance and, if needed, issues fines for noncompliance. CBP 
transfers this data (excluding data for U.S. citizens) to ADIS, which 
matches arrival and departure records to and from the United States.\4\
---------------------------------------------------------------------------
    \4\ DHS uses this information for a variety of immigration and law 
enforcement reasons, including to determine which travelers have 
potentially stayed past their authorized period of admission (i.e., 
overstayed) in the United States.
---------------------------------------------------------------------------
                          addressing overstays
    This integrated approach to collecting entry and exit data supports 
the Nation's ability to identify and address overstays. CBP identifies 
two types of overstays--those individuals who appear to have remained 
in the United States beyond their period of admission (Suspected In-
Country Overstay), and those individuals whose departure was recorded 
after their lawful admission period expired (Out-of-Country Overstay). 
The overstay identification process is conducted by consolidating 
arrival, departure, and change or adjustment to immigration status 
information to generate a complete picture of individuals traveling to 
the United States. This process extends beyond our physical borders to 
include a number of steps that may occur well before an individual 
enters the United States through a land, air, or sea POE and up to the 
point at which that same individual departs the United States.
    CBP's ADIS identifies and transmits potential overstays to CBP's 
ATS on a daily basis, which screens them against derogatory 
information, prioritizes them, and sends them to ICE's lead management 
system, LeadTrac,\5\ which retains them for review and vetting by 
analysts.
---------------------------------------------------------------------------
    \5\ LeadTrac is an ICE system designed to receive overstay leads to 
compare against other DHS systems and Classified datasets to uncover 
potential National security or public safety concerns for referral to 
ICE field offices for investigation. The system employs a case 
management tracking mechanism to assist with analysis, quality control 
reviews, lead status, and field tracking.
---------------------------------------------------------------------------
    Through specific intelligence and the use of sophisticated data 
systems, ICE identifies and tracks available information on millions of 
international students, tourists, and other individuals admitted as 
nonimmigrants who are present in the United States at any given time. 
Visa overstays and other forms of nonimmigrant status violations bring 
together two critical areas of ICE's mission--National security and 
immigration enforcement.
Enhancing Capabilities
    In the past few years, DHS has made substantial improvements to 
enhance our ability to identify, prioritize, and address confirmed 
overstays. DHS system enhancements that have strengthened our 
immigration enforcement efforts include:
  <bullet> Improved ADIS and ATS-Passenger (ATS-P) data flow and 
        processing quality and efficiency, increasing protection of 
        privacy through secure electronic data transfer.
  <bullet> Extended leverage of existing ATS-P matching algorithms, 
        improving the accuracy of the overstay list. Additional ADIS 
        matching improvements are underway to further improve match 
        confidence.
  <bullet> Developed an operational dashboard for ICE agents that 
        automatically updates and prioritizes overstay ``Hot 
        Lists,''\6\ increasing the efficiency of data flow between OBIM 
        \7\ and ICE.
---------------------------------------------------------------------------
    \6\ ``Hot lists'' are lists of individuals that are prioritized 
based on their level of risk.
    \7\ OBIM supports DHS components by providing biometric storage and 
matching services using its IDENT system to identify known or suspected 
terrorists, National security threats, criminals, and those who have 
previously violated U.S. immigration laws.
---------------------------------------------------------------------------
  <bullet> Implemented an ADIS-to-IDENT interface reducing the number 
        of records on the overstay list by providing additional and 
        better quality data to ADIS, and closing information gaps 
        between the two systems.
  <bullet> Improved ability of ADIS to match USCIS Computer Linked 
        Adjudication Information Management System (CLAIMS 3) data for 
        aliens who have extended or changed their status lawfully, and 
        therefore have not overstayed even though their initial period 
        of authorized admission has expired.
  <bullet> Created a Unified Overstay Case Management process 
        establishing a data exchange interface between ADIS, ATS-P, and 
        ICE's LeadTrac system, establishing one analyst platform for 
        DHS.
  <bullet> Enhanced ADIS and Transportation Security Administration 
        (TSA) Alien Flight Student Program (AFSP) data exchange to 
        increase identification, efficiency, and prioritization of TSA 
        AFSP overstays within the ADIS overstay population.
  <bullet> Enhanced Overstay ``Hot List,'' consolidating immigration 
        data from multiple systems to enable ICE employees to more 
        quickly and easily identify current and relevant information 
        related to the overstay subject.
  <bullet> Established User-Defined Rules enabling ICE agents to create 
        new or update existing rule sets within ATS-P as threats 
        evolve, so that overstays are prioritized for review and action 
        based on the most up-to-date threat criteria.
  <bullet> Enhanced the Student and Exchange Visitor Information System 
        and ADIS interface, in order to automatically calculate the 
        last date of F, M, or J status and more accurately capture a 
        nonimmigrant's immigration status. This improved data will 
        reduce fraud and increase awareness by providing Government 
        officials actionable intelligence with which to make decisions 
        and initiate investigations.
    These measures and system enhancements have proven to be valuable 
in identifying and addressing overstays. The DHS steps described above 
have strengthened data requirements through computer enhancements, 
identified National security overstays through increased collaboration 
with the intelligence community, and automated manual efforts through 
additional data exchange interfaces. DHS is continuing this progress in 
fiscal year 2017.
Reporting Overstay Data
    On January 19, 2016, DHS released the first Entry/Exit Overstay 
Report. This report represents a culmination of the aforementioned 
efforts to enhance data collection and address issues precluding 
production of the report in prior years. The Entry/Exit Overstay Report 
for Fiscal Year 2015 provided data on departures and overstays, by 
country, for foreign visitors to the United States who were lawfully 
admitted for business (i.e., B-1 and WB classifications) or pleasure 
(i.e., B-2 and WT classifications) through air or sea POEs, and who 
were expected to depart in fiscal year 2015--a population which 
represents the vast majority of annual nonimmigrant admissions.
    Recently, the Department released the Fiscal Year 2016 Entry/Exit 
Overstay Report. In partnership with other DHS components, CBP is 
continuing to improve data provided by ADIS allowing for the fiscal 
year 2016 report to include a significantly expanded classes of 
admission, compared with the fiscal year 2015 report.
    While the focus of last year's report was on individuals visiting 
the United States for business or pleasure, and those traveling under 
the VWP, this year's report expands the report population to include 
foreign student and exchange visitors (F, M, and J admission classes) 
and other in-scope nonimmigrant admission classes (such as H, O, P, Q 
admission classes). With the expansion of the report population, the 
fiscal year 2016 report accounts for 96.02 percent of all air and sea 
nonimmigrant admissions to the United States in fiscal year 2016. This 
represents all in-scope classes of admission (i.e. classes of admission 
that can produce enforceable overstays), and is expected to be used as 
the baseline population for reporting annually going forward. However, 
it does not include vehicular or pedestrian admissions at land ports of 
entry.
    In fiscal year 2016 there were 50,437,278 in-scope nonimmigrant 
admissions to the United States through air or sea POEs who were 
expected to depart in fiscal year 2016, which represents the majority 
of annual nonimmigrant admissions. Of this number, DHS calculated a 
total overstay rate of 1.47 percent, or 739,478 individuals. In other 
words, 98.53 percent of the in-scope nonimmigrant visitors departed the 
United States on time and abided by the terms of their admission.
    This report breaks down the overstay rates further to provide a 
better picture of those overstays who remain in the United States 
beyond their period of admission and for whom there is no identifiable 
evidence of a departure, an extension of period of admission, or 
transition to another immigration status. At the end of fiscal year 
2016, there were 628,799 Suspected In-Country Overstays. The overall 
Suspected In-Country Overstay rate for this scope of travelers is 1.25 
percent of the expected departures.
    Due to continuing departures and changes in nonimmigrant status or 
adjustment of status to lawful permanent residence by individuals in 
this population, by January 10, 2017, the number of Suspected In-
Country Overstays for fiscal year 2016 decreased to 544,676, rendering 
the Suspected In-Country Overstay rate as 1.07 percent. In other words, 
as of January 10, 2017, DHS has been able to confirm departures, 
changes to, or adjustment of status of more than 98.90 percent of 
nonimmigrant visitors scheduled to depart in fiscal year 2016 via air 
and sea POEs, and that number continues to grow.
    This report separates VWP country overstay numbers from non-VWP 
country numbers. For VWP countries, the fiscal year 2016 Suspected In-
Country Overstay rate is 0.60 percent of the 21,616,034 expected 
departures. For non-VWP countries, the fiscal year 2016 Suspected In-
Country Overstay rate is 1.90 percent of the 13,848,480 expected 
departures.
    As mentioned previously, part of the nonimmigrant population in 
this year's report now includes visitors who entered on a student or 
exchange visitor visa, F, M, or J visa, respectively. DHS has 
determined there were 1,457,556 students and exchange visitors 
scheduled to complete their program in the United States. However, 5.48 
percent stayed beyond their authorized window for departure at the end 
of their program.
    For Canada, the fiscal year 2016 Suspected In-Country Overstay rate 
is 1.33 percent of 9,008,496 expected departures. For Mexico, the 
fiscal year 2016 Suspected In-Country Overstay rate is 1.52 percent of 
3,079,524 expected departures. Consistent with the methodology for 
other countries, this represents only travel through air and sea POEs 
and does not include data on land border crossings. Currently, it is 
unclear if these numbers are inflated as Canadian and Mexican nationals 
can depart across the land border. CBP is pursuing a variety of methods 
to obtain this land border departure data, which will be discussed in 
greater detail below.
    Identifying overstays is important for National security, public 
safety, immigration enforcement, and processing applications for 
immigration benefits and is one of the many drivers for DHS as it 
continues to develop and test the entry and exit system during fiscal 
year 2017, both biometric and biographic, which will improve the 
ability of CBP to report this data accurately.
               overstay enforcement in the united states
    With regard to overstay enforcement, ICE focuses its efforts on 
identifying and prioritizing, for enforcement action, foreign nationals 
who overstayed their period of admission or otherwise violated the 
terms or conditions of their admission to the United States. ICE 
receives nonimmigrant compliance information from various investigative 
databases and DHS entry/exit registration systems. The information 
identifies nonimmigrants who have entered the United States through an 
established immigration entry process and may have failed to comply 
with immigration regulations. As part of a tiered review, ICE Homeland 
Security Investigations (HSI) prioritizes nonimmigrant overstay cases 
through risk-based analysis. HSI's Counterterrorism and Criminal 
Exploitation Unit (CTCEU) oversees the National program dedicated to 
the investigation of nonimmigrant visa violators who may pose a 
National security or public safety risk.
    Using a comprehensive prioritization scheme, ICE identifies 
nonimmigrant overstays, conducts in-depth analysis, locates targets, 
and initiates field investigations by referring high-priority 
information to ICE HSI field offices Nation-wide. In order to ensure 
that those who may pose the greatest threats to National security and 
public safety are given top priority, ICE uses intelligence-based 
criteria developed in close consultation with the intelligence and law 
enforcement communities. ICE chairs the Compliance Enforcement Advisory 
Panel (CEAP), comprised of subject-matter experts from other law 
enforcement agencies and members of the intelligence community, who 
assist in maintaining targeting methods in line with the most current 
threat information. This practice, which is designed to detect and 
identify individuals exhibiting specific risk factors based on 
intelligence reporting, travel patterns, and in-depth criminal research 
and analysis, has contributed to DHS's counterterrorism mission by 
initiating and supporting high-priority National security initiatives 
based on specific intelligence.
    Each year, ICE HSI CTCEU analyzes records of hundreds of thousands 
of potential status violators after preliminary analysis of data from 
the Student and Exchange Visitor Information System and CBP's ADIS, 
along with other information. Once the leads are received, ICE conducts 
both batch and manual vetting against Government databases, social 
media, and public indices. This vetting establishes compliance or 
departure from the United States and/or determines potential violations 
that warrant field investigations. Overstays who do not meet ICE HSI 
CTCEU's National security and public safety threat criteria are 
referred to ICE Enforcement and Removal Operations (ERO) for action.
    As part of its vetting process, ICE HSI CTCEU also instituted the 
Visa Waiver Enforcement Program (VWEP). ICE HSI CTCEU scrutinizes 
individuals identified as potential VWP violators, to identify those 
subjects who attempt to circumvent the U.S. immigration system by 
seeking to exploit VWP travel. Other significant projects and 
initiatives include: The Recurrent Student Vetting Program; DHS's 
Overstay Projects; Absent Without Leave (AWOL) Program; INTERPOL Leads; 
and individuals who have been watchlisted.
    In fiscal year 2016, ICE HSI CTCEU reviewed 1,282,018 compliance 
leads. Numerous leads that were referred to ICE HSI CTCEU were closed 
through an automated vetting process. The most common reasons for 
closure were subsequent departure from the United States or pending 
immigration benefits. A total of 4,116 leads were sent to HSI field 
offices for investigation. From the 4,116 leads sent to the field, 
1,884 are currently under investigation, 1,126 were closed as being in 
compliance (pending immigration benefit, granted asylum, approved 
adjustment of status application, or departed the United States) and 
the remaining leads were returned to ICE HSI CTCEU for continuous 
monitoring and further investigation. HSI Special Agents made 1,261 
arrests, secured 97 indictments, and 55 convictions in fiscal year 
2016.
Improvements in Information Sharing, Data Integrity, and Use of 
        Biometrics
    ICE executes risk-based overstay enforcement activities as part of 
an integrated strategy to combat transnational crime in coordination 
with our domestic and foreign partnering agencies, targeting the 
illegal movement of people, merchandise, and monetary instruments into, 
within, and out of the United States. In addition to developing viable 
leads for field investigation, ICE's in-depth vetting efforts serve to 
continually improve DHS's overall data holdings, and the information it 
can bring to protecting the homeland. That validated information is 
used to update the various DHS systems, including ADIS.
    ICE has been an integral partner supporting the creation of a DHS 
Unified Overstay Case Management process that established a data 
exchange interface between ADIS, ATS-P, and ICE's LeadTrac systems. 
That effort has helped reduce the time line required for vetting 
National security-related and public safety overstay leads.
Improvements in Overstay Enforcement and OIG Recommendations
    ICE is committed to improving and evolving our overstay enforcement 
efforts, including through advancing our information technology 
capabilities. In 2014, ICE HSI CTCEU established the Open-Source Team 
(OST) to conduct social media analysis to help resolve unable-to-locate 
cases. OST applies in-depth knowledge of a broad range of publicly-
available information to locate specific targeted individuals, identify 
trends and patterns, and identify subtle relationships. This initiative 
enhances investigative leads that are currently being sent to HSI field 
offices for investigation. In August 2016, ICE HSI CTCEU's Overstay 
Lifecycle and Domestic Mantis Pilot Programs were launched. These pilot 
programs will help to better capture information on visa violators as 
part of an overarching visa life cycle and identify foreign students 
who have access to sensitive technology. The Overstay Lifecycle pilot 
program tracks nonimmigrant visitors from the time they file a visa 
application to the time they depart from the United States, or until 
such time as they become an overstay or otherwise fail to comply with 
their terms of admission. The Domestic Mantis pilot program identifies 
nonimmigrant students who enter the United States to study in a non-
sensitive academic field and subsequently transfer to a sensitive 
academic field, or attempt to work in areas posing a National security 
or public safety threat. It is anticipated that these pilot programs 
will provide another layer of security and tool for overstay 
enforcement in the United States.
    Finally, we are working with DHS to address the recommendation in 
the recent report released by the DHS Office of Inspector General 
(OIG). The report included two recommendations for ICE and ICE is 
working to identify training gaps for visa-related IT systems used by 
ICE personnel and to notify the ICE user community of available 
training options. ICE is also working towards compiling a comprehensive 
list of all visa-related systems across the Department, to include 
system owners and training points of contacts. By addressing these two 
concerns and ensuring that ICE users have the opportunity to receive 
official, hands-on training in visa IT systems and documented guidance 
on potential uses of each system, the efficiency and adeptness of the 
visa overstay tracking system will be enhanced. In the immediate term, 
ICE HSI has sent guidance to all HSI field offices providing further 
instruction on how to conduct HSI CTCEU investigations.
    The DHS Office of Chief Information Officer (OCIO) is currently 
building an enterprise information-sharing platform that, in the 
future, can provide a solution to mitigate the issues raised and gaps 
identified in the OIG report. The vision of the Data Framework is to 
deliver an information-sharing platform in which intelligence analysts 
and mission operators have controlled, near-real-time access to 
consolidated homeland security data in Classified and Unclassified 
environments in a manner consistent with applicable law and policy and 
while protecting individuals' privacy, civil rights, and liberties.
    OCIO has been building the platform for the Classified environment. 
In fiscal year 2017, the OCIO is beginning to focus on the Unclassified 
environment portion of the Data Framework. This would afford the 
components the ability to timely access within articulated constraints, 
the relevant and necessary homeland security information they need to 
successfully perform their duties, identifying overstays and reporting 
on overstay numbers, being two such duties. The goal of the Data 
Framework is to provide a mission user with the ability to access, 
search, manipulate, and analyze, as appropriate, different data sets 
extracted from multiple DHS systems for a specific purpose; retrieve 
accurate and timely information; and view the information in a clear 
and accessible format.
             cbp comprehensive biometric entry/exit system
    Since fiscal year 2013, CBP has led the entry/exit mission, 
including research and development of biometric exit programs. A 
comprehensive entry/exit system that leverages both biographic and 
biometric data is key to supporting DHS's mission. CBP developed and 
implemented a series of biometric exit pilot programs in the air and 
land environments between 2014 and 2016, and we testified regarding 
those efforts in June 2016.
Biometric Exit in the Air Environment
    The earlier trials allowed CBP to develop a realistic and 
achievable biometric exit plan. CBP's vision for implementing biometric 
exit is to ``pre-stage'' biometric data throughout the travel process 
and allow that data to be used by each traveler as they follow the 
typical process for boarding an aircraft departing the United States. 
CBP will perform the matching function and use biometrics to streamline 
the passenger process throughout the air travel process, not just at 
departure. CBP's process for matching ``pre-stage'' biometric data to 
biometric data captured at departure is described in greater detail 
below.
    Adding biometrics provides greater assurance of the information 
already collected by CBP and will allow for future facilitated 
processing upon both entry and exit. CBP will use a traveler's face as 
the primary way of identifying the traveler to facilitate entry and 
exit from the United States, while simultaneously leveraging 
fingerprints for watch list checks. This innovative structure will make 
it possible to confirm the identity of travelers at any point in their 
travel, while at the same time establishing a comprehensive biometric 
air exit system.
    CBP is dedicated to protecting the privacy of all travelers, and 
will ensure that all legal and privacy requirements are met as we 
continue to implement biometric exit.
    CBP's plan is to complete the technical matching service by 2018, 
but this summer CBP will roll out biometric air exit technical 
demonstrations at a number of airports to continue biometric exit 
implementation. These demonstrations will occur at select flights in 
each of the airports.
CBP Traveler Verification Service (TVS)
    The technical demonstrations are based on a concept that CBP has 
been testing since June 2016 at Atlanta Hartsfield International 
Airport. The Atlanta airport demonstration tested a solution under five 
guiding principles: (1) Avoid adding any new process to minimize time 
and impact; (2) utilize existing infrastructure to avoid large capital 
costs and enable a near-term deployment; (3) leverage existing 
stakeholder systems, processes, and business models to reduce costs and 
avoid large changes for all stakeholders; (4) leverage passenger 
behaviors and expectations to promote ease of use for travelers; and 
(5) use existing traveler data and existing Government IT 
infrastructure to reduce costs and avoid stove-piped systems.
    The Atlanta test was designed using existing CBP systems, 
leveraging data already provided to the U.S. Government by the traveler 
and airlines. CBP created a pre-positioned ``gallery'' of face images 
from DHS holdings based on a flight departure manifest provided by the 
airline. These photographs can come from passport applications, visa 
applications, or interactions with CBP at a prior border encounter 
where a photograph is typically taken. Essentially, CBP creates a 
gallery of all the passengers it expects to see boarding an aircraft, 
based on the manifest provided by the airline.
    CBP then compares a live photograph of the traveler captured at the 
departure gate to the flight's gallery of face images to confirm the 
traveler's departure, providing a biometric record of departure for 
passengers on that flight. This process allows CBP to increase security 
by using a facial biometric to match the traveler to their advanced 
passenger information and biographic vetting results while 
simultaneously checking the fingerprints on file against the watch 
list.
    U.S. Citizens are not exempted from this process for two reasons: 
First, it is not feasible to require airlines to have two separate 
boarding processes for U.S. citizens and non-U.S. citizens, and second, 
to ensure U.S. citizen travelers are the true bearer of the passport 
they are presenting for travel.
    If the photograph captured at boarding is matched to a U.S. citizen 
passport, the photograph is discarded after a short period of time.
    In essence, for U.S. citizens the document check has been 
transformed from a manual process by airline personnel or CBP officers 
into an automated process using a machine. It is important to note that 
CBP is committed to privacy and has engaged our privacy office at every 
step in the process to add biometrics to the departure process from the 
United States.
    CBP has processed approximately 28,000 travelers through the 
Atlanta demonstration. For travelers who have an existing photograph in 
DHS systems--about 96 percent of travelers--the system matched at a 90 
percent rate or higher.\8\ Today, CBP continues to process biometric 
exit records for a limited number of daily international flights in 
Atlanta.
---------------------------------------------------------------------------
    \8\ Two of the most common reasons for not having a photo within 
DHS systems is flying as a U.S. citizen under military orders or as an 
alien who entered the United States without inspection.
---------------------------------------------------------------------------
Summer 2017 Technical Demonstrations
    Based on the success of the Atlanta demonstration, CBP will 
demonstrate the initial implementation of the TVS through the expansion 
of air exit capabilities to eight airports during the summer of 2017. 
The capability will utilize the TVS to biometrically identify departing 
travelers, and demonstrate to airlines and airports how biometrics can 
be integrated into current boarding processes.
Stakeholder Outreach
    In addition to CBP demonstrations, CBP is executing a proactive 
engagement strategy with partners within the travel industry to execute 
public/private partnerships. The goal of these engagements is to 
demonstrate an integrated, comprehensive approach to identity 
verification that provides a seamless travel experience.
    To this end, CBP has introduced the Biometric Entry/Exit vision to 
the air travel industry including international airports, U.S. airline 
carriers, and travel organizations.\9\ By involving all of the 
stakeholders, CBP is able to discuss and refine the solution and verify 
potential benefits for all stakeholders.
---------------------------------------------------------------------------
    \9\ Including the A4A, ACI-NA, AAAE, and IATA.
---------------------------------------------------------------------------
    CBP is now collaborating with U.S. carriers and planning 
demonstration pilots. For these pilots, airlines will procure the 
biometric facial cameras and integrate with CBP's provided TVS. CBP has 
also begun discussions with numerous international carriers on the 
biometric exit vision. Under this approach, CBP will learn best 
practices for operations and integration into existing airline boarding 
processes as these processes vary among airlines and airports.
    CBP is working closely with stakeholders to ensure successful 
implementation of biometric exit and transform the entry process. 
Biometric technology has the potential to transform how travelers 
interact with airports, airlines, and CBP, which has the potential to 
create a seamless travel process, improving both convenience and 
security.
Biometric Exit in the Land Environment
    In pursuing a biometric exit system, DHS is cognizant of 
limitations posed by existing infrastructure. In the land environment, 
there are often geographical features that prevent expansion of exit 
lanes to accommodate adding lanes or CBP-manned booths. CBP has 
developed a biometric exit land strategy that focuses on implementing 
an interim exit capability while simultaneously investigating 
innovative technologies needed to reach our long-term vision of a 
comprehensive biometric exit land solution. Recording exits and 
biometrically verifying travelers who depart at the land border will 
close a gap of information necessary to complete a nonimmigrant 
traveler's record in ADIS, and will allow CBP an additional means to 
determine when travelers who depart the United States via land have 
overstayed their admission period.
Land-Phased Approach
    Given the limitations outlined above and DHS's desire to implement 
this program without negatively impacting cross-border commerce, a 
phased approached to land implementation will be undertaken. The 
initial implementation of the land exit strategy will require certain 
third-country nationals to self-report their departure from the United 
States. Third-country nationals are defined as those who are neither 
American, Mexican, nor Canadian, and for this initial phase, will be 
limited to nonimmigrant visa holders, types B-1 or B-2 or VWP 
travelers.
    In addition, facial recognition technology, similar to what will be 
used in the air environment will be deployed at two ports on the 
Southwest Border in both pedestrian entry and exit locations. Facial 
recognition technology will be implemented for frequent travelers and 
cameras will be located within the vicinity of primary processing 
booths. At pedestrian departure, cameras will also record facial images 
upon departure and once the camera system identifies a ``match'' 
(confirms the identity of the traveler), the system will record a 
biometrically-confirmed exit for the traveler.
Biographic Exit Exchange Partnerships with Canada and Mexico
    At the Northern land border, as part of the Beyond the Border 
Action Plan with Canada, the United States and Canada are implementing 
a biographic exchange of traveler records that constitutes a biographic 
exit system on the shared border. Today, traveler records for all 
lawful permanent residents and non-citizens of the United States and 
Canada who enter either country through land POEs on the Northern 
Border are exchanged in such a manner that land entries into one 
country serve as exit records from the other. The current match rate of 
Canadian records for travelers leaving the United States for Canada 
against U.S. entry records for nonimmigrants is over 98 percent. In 
April 2016, Canada reaffirmed its commitment to the United States to 
complete the program to include all travelers who cross the Northern 
Border. Canada will need to complete passage of additional legislation 
to facilitate this final phase.
    Engagement with Mexico on establishing a similar collection and 
exchange of entry/exit information is under way, and both countries 
plan to implement a biographic data exchange at the San Ysidro port of 
entry early in fiscal year 2018, using reading of radio-frequency ID 
documents (RFID) which are very common among Southern Border crossers.
Biometric Vehicle Capture ``At Speed''
    In 2016, CBP conducted a field of ``at speed'' facial biometric 
capture technology on vehicle outbound travelers. The results from the 
feasibility analysis of the field test will be used to conduct market 
research to identify and evaluate production-ready solutions available 
in the market. Technical specifications established by the field test 
will be used to conduct a controlled test facilities to determine 
equipment placement and number of cameras necessary to capture 
photographs beyond the driver, and to establish the performance metrics 
baseline. In addition, comparative analysis will be performed on facial 
recognition matching algorithms being developed by academia and 
industry on images captured during the field test. These two tests will 
culminate in an operational experiment of cameras, camera placement, 
algorithm matching accuracy, and performance results at an outbound 
port with optimal conditions.
                  fee collections for exit activities
    In the Consolidated Appropriations Act, 2016 (Pub. L. No. 114-113), 
Congress provided CBP with a fee-funded account for biometric entry/
exit activities, which may collect up to $1 billion by fiscal year 
2025.
    CBP has completed a spend plan and acquisition plan to account for 
the execution of these funds and these are currently being evaluated as 
part of the DHS Acquisition Review Board. As mentioned, CBP plans to 
partner with private industry in order to achieve our goal of 
development of a biometric exit system. Of note, while the funds 
provided through the Consolidated Appropriations Act, 2016 will enable 
CBP to take the next major steps in development of a biometric entry/
exit system at the highest volume airports, full Nation-wide deployment 
of a comprehensive entry-exit system at all ports of entry will require 
additional resources not available from the authorized surcharges.
                               conclusion
    While implementation of a robust and efficient biometric exit 
solution will take time, and significant challenges remain, DHS is 
aggressively moving forward in development of a comprehensive biometric 
exit system, in the land, air, and sea environments. We are proud of 
our progress. We look forward to the technical demonstrations in major 
airports coming this summer, and will continue to share our on-going 
findings with this subcommittee. Through these and related efforts, we 
will continue to build on the progress we have made in our ability to 
identify, report, and take appropriate action against those who 
overstay or violate the terms of their admission to the United States.
    Chairwoman McSally, Ranking Member Vela, and distinguished Members 
of the subcommittee, thank you for this opportunity to testify today on 
this important issue. We look forward to answering your questions.

    Ms. McSally. Thank you, Mr. Dougherty.
    The Chair now recognizes Mr. Wagner for 5 minutes.

     STATEMENT OF JOHN WAGNER, DEPUTY EXECUTIVE ASSISTANT 
    COMMISSIONER, U.S. CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Good afternoon, Chairwoman McSally, Ranking 
Member Vela, and distinguished Members of the subcommittee. 
Thank you for the opportunity to discuss U.S. Customs and 
Border Protection's progress since last year for its 
implementation of a comprehensive biometric entry and exit 
system.
    Before that, let me touch on the overstay report we 
released yesterday. This year's report accounts for 96 percent 
of all air and sea non-immigrant admissions for fiscal year 
2016 at air and sea locations. We have expanded the report to 
include additional categories of temporary visitors, including 
foreign students, exchange visitors, and certain worker 
classifications.
    Last fiscal year, there were approximately 50.4 million in-
scope non-immigrant admissions through the air and sea 
locations who were expected to depart. Of this number, DHS has 
calculated a total overstay rate of approximately 1.47 percent, 
which is about 739,000 individuals. Of these, about 628,000 
remained in the United States, or 1.25 percent at the end of 
the fiscal year.
    Due to continuing departures, that number is currently at 
about 455,000 or 0.9 percent. I am happy to discuss that report 
further.
    So moving to biometric exit, last year I testified before 
the subcommittee and described some of the pilots that CBP and 
DHS have conducted over the years and the many challenges we 
have faced in developing a feasible biometric exit solution. I 
understand your frustration with the pace of this.
    I also recognize that Congress has made $1 billion 
available over the next decade for biometric exit and 
essentially funded a program in advance of DHS having a real 
plan on how to implement.
    As I have said publicly, we are out of time and we are out 
of excuses. So the good news is we have developed a feasible 
solution. We have had a lot of discussions with private-sector 
technology experts and many stakeholders. We knew for this to 
be successful, we couldn't implement another stand-alone, 
stove-piped process, adding yet another new process for 
travelers to learn.
    We certainly couldn't rearrange, in the near term, how 
airports are built or the operating model of the airline 
industry. So the biggest factor in our struggle to find a 
solution was relying on finding that single magic piece of 
technology that would accomplish our needs.
    Previous efforts never really took a deep look at the 
processes behind how our data systems already function. So we 
figured out a way to better position the data we already have 
on travelers, to make the inspection process a lot more 
efficient.
    In non-technical terms, we moved the biometrics of the 
traveler expected to be on a departing flight out of the DHS 
open database and into its own temporary and secure database 
until we encounter the person. By doing so, we can now skip 
reading the passport first. Like all other countries require 
who have smart gates and a lot of the technology we have seen 
developed, we can go straight to collecting a biometric and 
matching against the gallery. This makes the process a lot 
quicker and the infrastructure footprint much smaller, less 
expensive, and much more manageable to implement.
    So we put this concept to test using facial recognition on 
a flight in Atlanta. We created a pre-positioned gallery of 
facial images we had already collected and compared a live 
photograph of the traveler boarding the plane, thus creating a 
biometric record of departure.
    We have processed about 28,000 travelers through this 
Atlanta demonstration over the last 10 months, matching at a 
rate at high 90 percentile for travelers who have a photograph 
available. So this validated our concept on how to use the 
data, coupled with the latest technology and fitting within the 
operational model of the airline and the airports. It is easy 
for travelers to use. Everybody knows how to take a picture.
    So while facial recognition will be used, we will continue 
to collect fingerprints from foreign nationals upon initial 
encounters. Both biometrics will be fused together in our 
systems and the fingerprint results can be returned by matching 
a photo associated with them.
    So we are getting the same vetting results as if we had 
read the fingerprints or the passport. This is just a more 
efficient, convenient, and user-friendly way of traveler 
verification without losing any of the security benefits.
    We have introduced this vision to the air travel industry. 
Beginning this summer, we will roll out 6 to 10 biometric air 
exit demonstrations at airports. The demonstrations will occur 
at select flights at each of the airports.
    Some of these will be utilizing airline or airport-provided 
technology through cameras at self-boarding gates. This will 
allow our stakeholders to work with the new process, and we can 
jointly develop an implementation strategy that also conforms 
to their own modernization plans.
    Now, CBP is not neglecting the land environment. The land 
strategy will consist of initially requiring third-country 
nationals, non-Mexican citizens, non-Canadian citizens, to 
self-report their departure from the United States at the land 
border ports.
    There are very few of these travelers making a final 
departure from the United States, only a few hundred a day, if 
that. We will commence a notification process later this year 
to advise travelers of these new requirements.
    In addition, facial recognition technology will be deployed 
at two Southwest Border land ports of entry for pedestrians and 
exit later this year. This configuration will be developed so 
it is expandable to other pedestrian locations.
    So in conclusion, we would have a feasible, efficient 
biometric exit solution at all modes, with the exception of 
land border vehicles. It is a matter of building out the I.T. 
back-end services and infrastructure to support this on a 
National basis, while simultaneously working with the industry 
stakeholders to incorporate their own automation efforts into 
the exit infrastructure.
    So thank you for the opportunity to appear today, and I 
look forward to your questions.
    Ms. McSally. Thank you Mr. Wagner.
    The Chair now recognizes Mr. Settles for 5 minutes.

   STATEMENT OF CLARK SETTLES, ASSISTANT DIRECTOR, NATIONAL 
   SECURITY DIVISION, HOMELAND SECURITY INVESTIGATIONS, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Settles. Chairwoman McSally, Ranking Member Vela, and 
distinguished Members of the subcommittee, thank you for the 
opportunity to appear today to discuss how ICE Homeland 
Security investigations, HSI, investigates visa overstays and 
to highlight improvements HSI has implemented in overstay 
enforcement.
    HSI's Counter-Terrorism and Criminal Exploitation Units, 
CTCEU, focuses on identifying and prioritizing its enforcement 
efforts toward overstays who are still in the country, 
otherwise known as in-country overstays, who may pose a 
National security or public safety threat.
    On a daily basis, HSI agents ingest thousands of potential 
overstay leads from U.S. Customs and Border Protection, CBP's 
Arrival and Departure Information System, ADIS, from HSI 
Student and Exchange Visitor Information System, SEVIS, and 
other referrals on foreign nationals who may have overstayed 
their mission period or otherwise violated the terms of their 
admission to the United States.
    When leads are received by the CTCEU team, they go through 
an automated and manual vetting process based on a prioritized 
risk-based framework. Lead packages that include all available 
information and instructions on how to adjudicate the leads are 
sent to the HSI SAC offices Nation-wide for further 
investigation by local trained and experienced field agents.
    In fiscal year 2016 HSI reviewed approximately 1.2 million 
unvalidated overstay leads. Numerous leads were closed through 
the above-described vetting process due to subsequent 
departures from the United States, a change in status or 
pending immigration benefits.
    Those that did not meet HSI's threat criteria were referred 
to ICE's Enforcement and Removal Operations, ERO, for further 
action.
    Of the overstay leads remaining within HSI's purview, 4,116 
lead packages were sent to HSI field offices for further 
investigation. From those leads, HSI special agents made 1,261 
arrests, secured 97 indictments and 55 convictions.
    One thousand eight hundred and eighty-four cases are still 
currently under investigation. Another 1,126 were closed as 
being in compliance. The remaining leads were cycled back into 
continuous monitoring for further research as new information 
is revealed.
    However, we at HSI are committed to always doing better in 
advancing our capabilities, as technology has developed and as 
resources allow, and overstay enforcement is certainly no 
exception.
    I would like to take a moment to highlight a recent pilot 
program in overstay enforcement, an effort to prevent overstays 
by pushing the borders out and our effort to improve data.
    First, our overstay life-cycle pilot is an effort to ensure 
continuous monitoring. Started last year, HSI is tracking non-
immigrant visitors who file visa applications at certain visa 
security posts, from the time they apply through their 
departure from the United States. This continuous review allows 
HSI the ability to take actions should derogatory information 
be uncovered at any point in the visa life cycle.
    Second, HSI, in collaboration with the Department of 
Defense and CBP, developed a biometric program called BITMAP, 
to target high-risk subjects who are en route to the United 
States.
    Through BITMAP, we provide capability to our foreign 
partners to tactically collect biometric and biographic data on 
persons of interest they encounter. If such individuals are 
identified as threats to U.S. National security, HSI and our 
U.S. Government partners work with host nations to take 
appropriate law enforcement action.
    In addition, BITMAP collections bring individuals of 
interest to our attention so that we can prevent them from 
acquiring visas and stop admission to the United States at 
future encounters.
    One example of BITMAP program success involves an Eastern 
European national encountered in South America. Through BITMAP, 
the subject was found to be a match to a no-fly record. When 
confronted and questioned, he identified himself as a foreign 
fighter. He was detained for deportation in South America and 
his travel was stopped.
    This is what HSI is striving to do: Identify such 
individuals and prevent them from reaching the United States.
    Third, HSI has been an integral partner in improving the 
data interface between DHS systems to streamline our ability to 
identify overstays. Through modernization of lead track and 
SEVIS, we are advancing DHS information sharing and expediting 
overstay vetting. A number of initiatives are on-going at DHS 
to enable systems to provide person-centric, rather than event-
specific data that will help us better prioritize our cases.
    Before concluding, let me emphasize how seriously we take 
the recommendations from OIG and GAO reviews. When I came into 
this job from the field, just a few weeks ago, and was given 
the last OIG report, I took action immediately in response to 
concerns about field training and overstay investigations.
    I re-sent the CTCEU Overstay Handbook and guidance to all 
of the HSI field offices and agents. This handbook provides 
detailed instructions on what systems to use and how to conduct 
overstay investigations.
    I also launched a plan to reinvigorate our regional 
training program, including training on systems, because if 
even one agent is confused on how to investigate one of these 
leads, it is not acceptable.
    Thank you again for inviting me today to explain HSI's 
critical role in the overstay enforcement process. I will be 
pleased to answer any of your questions. Thank you.
    Ms. McSally. Thank you, Mr. Settles.
    The Chair now recognizes Mr. Roth for 5 minutes.

   STATEMENT OF JOHN ROTH, INSPECTOR GENERAL, OFFICE OF THE 
    INSPECTOR GENERAL, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Chairwoman McSally, Ranking Member Vela, Members 
of the subcommittee, thank you for inviting me here today to 
testify to discuss our work relating to visa overstays, 
including our most recent audit report. The results of our 
audit revealed that DHS information technology systems do not 
effectively support ICE visa tracking operations for a number 
of reasons.
    First, identifying potential visa overstays requires 
pulling data from dozens of systems and databases, some of 
which are not integrated and do not electronically share 
information.
    This is necessary because four different DHS components 
ICE, CBP, USCIS, and the National Protection and Programs 
Directorate, as well as numerous entities outside of DHS, are 
involved in managing the overstay issue.
    Much of the data that is stored is not in easily 
retrievable fields. As an illustration of the disjointed nature 
of the I.T. systems involved, ICE investigators need to retain 
up to 40 different passwords, each with different access 
restrictions and expiration dates, for up to 27 different 
information systems.
    Second, real-time access or access to real-time data is 
hampered by system access restrictions. ICE personnel are 
sometimes unable to gain access to USCIS systems, despite 
having the need to do so. Some data is retained in paper-based 
files, which can take considerable time to access, and some 
systems are not frequently updated.
    Third, ICE personnel do not have the training and guidance 
they need to effectively identify and utilize the numerous 
systems currently used for visa overstay tracking. ICE 
personnel in the field are not always sure which systems to use 
to perform their specific job functions.
    Personnel we met at multiple locations expressed concerns 
that they were unaware of all the systems available to them 
across DHS components and agencies, potentially limiting their 
effectiveness in carrying out their visa tracking 
responsibilities.
    Last, in the absence of a comprehensive biometric exit 
system at U.S. ports, DHS relies on third-party departure data, 
such as passenger lists from airlines, which is not always 
accurate and fails to capture land departure data, which 
accounts for the vast majority of visitors leaving the United 
States.
    These deficiencies have a significant real-world impact, 
including a backlog of more than 1.2 million visa overstay 
cases, an inability to estimate, with any degree of confidence, 
the number of individuals who are actually overstaying, which 
results in a poor understanding of the problem and incomplete 
reporting to Congress.
    Considerable resources are wasted investigating thousands 
of leads that could have been eliminated, such as individuals 
who had already left the country or applied for and received 
immigration benefits.
    In fact, during our review, we found that HSI agents spend 
40 percent of their caseload investigating individuals they 
should not be investigating, largely because they were in 
compliance with the law or had left the country. Part of the 
problem is that the Department has historically done a poor job 
of requiring I.T. integration, which results in a fragmented 
and decentralized system.
    The DHS chief information officer should provide greater 
oversight and centralized management of DHS I.T. systems. This 
is a long-standing issue we have repeatedly reported on. 
Additionally, the ICE chief information officer must provide 
adequate training and guidance to personnel in the field about 
how to properly use current data systems.
    Finally, CBP must continue to work on moving forward with 
the biometric entry-exit system, which will assist in 
streamlining ICE's investigative efforts. Until the Department 
properly equips its personnel with the tools and training 
required for the vital work of tracking visitors who overstay 
their visas, timely identification, investigation, and 
adjudication of visa overstays will not be possible, increasing 
the risk to public safety and National security.
    We made five recommendations in our audit report that we 
will believe will assist in making the process more efficient. 
The Department and its components have agreed with each of our 
recommendations and is implementing corrective action. We will 
monitor the progress the Department makes and report as needed.
    This concludes my testimony. I will be happy to answer any 
questions you or other Members of the committee may have.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                              May 23, 2017
    Chairwoman McSally, Ranking Member Vela, and Members of the 
subcommittee, thank you for inviting me here today to discuss the 
Department of Homeland Security (DHS) Office of Inspector General's 
(OIG) work relating to visa overstays, including our recent audit 
report, DHS Tracking of Visa verstays Is Hindered by Insufficient 
Technology.\1\
---------------------------------------------------------------------------
    \1\ DHS Tracking of Visa Overstays Is Hindered by Insufficient 
Technology, OIG-17-56 (May 2017).
---------------------------------------------------------------------------
    The results of our audit revealed that DHS's information technology 
(IT) systems do not effectively support U.S. Immigration and Customs 
Enforcement (ICE) visa tracking operations for the following reasons:
  <bullet> Identifying and investigating potential visa overstays 
        requires pulling data from dozens of systems and databases, 
        some of which are not integrated and do not electronically 
        share information;
  <bullet> Access to real-time data is mired by system access 
        restrictions, the need to retain up to 40 passwords, and 
        systems that are not updated;
  <bullet> ICE personnel do not have the training and guidance they 
        need to effectively identify and utilize the myriad systems 
        currently available for visa overstay tracking; and
  <bullet> In the absence of a comprehensive biometric exit system at 
        U.S. ports, DHS relies on third-party departure data, which is 
        not always accurate and fails to capture land departure data, 
        which accounts for the vast majority of visitors exiting the 
        United States.
    These deficiencies have significant real-world impact, including:
  <bullet> A backlog of more than 1.2 million visa overstay cases;
  <bullet> Considerable resources wasted investigating thousands of 
        leads that should have been ruled out as visa overstays (e.g., 
        individuals who already left the country or applied for/
        received immigration benefits);
  <bullet> Arrests of less than 0.4 percent of the individuals who 
        potentially overstayed their visas; and
  <bullet> Congress receiving DHS visa overstay reports that 
        underestimate and distort the true scope of the visa overstay 
        problem.
    Until the Department properly equips its personnel with the tools 
and training required for the vital work of tracking visitors who 
overstay their visas, timely identification, investigation, and 
adjudication of visa overstays will not be possible, increasing the 
risk to public safety and National security.
                               background
    When a nonimmigrant visitor is admitted to the country but exceeds 
the authorized period of admission, the visitor becomes an 
``overstay.'' According to DHS reports, only a small percentage (1.17 
percent) of visa holders overstayed their admission periods in 2015; 
however, their impact on National security can be great. For example, 2 
of the 19 hijackers on September 11, 2001 were visa overstays. This 
prompted the 9/11 Commission to call for the government to ensure that 
all visitors to the United States are tracked on entry and exit.
    DHS has primary responsibility for identifying visa overstays and 
taking enforcement action to address security risks. Within DHS, 
multiple components play a role in tracking, investigating, 
apprehending, and deporting overstays. For example, U.S. Customs and 
Border Protection (CBP) collects biographic and biometric information 
to document arrival and departure information on individuals arriving 
in the United States at U.S. ports of entry.
    CBP officers also determine nonimmigrant admissibility into the 
United States and provide an ``admit until date,'' by which time the 
individual must leave the country. U.S. Citizenship and Immigration 
Services (USCIS) processes and maintains documentation pertaining to a 
visa holder's immigration status. And ICE leads immigration enforcement 
operations and is responsible for in-country nonimmigrant visa overstay 
tracking and enforcement. Information sharing and collaboration among 
these components is critical for timely and accurate identification, 
tracking, and adjudication of potential visa overstays.
    The Department has an electronic automated vetting process for 
identifying nonimmigrant visa holders who may have remained in the 
country beyond their period of admission. A suspected overstay is 
automatically flagged in DHS's systems when there is no record of 
nonimmigrant departure or change in visitor status. In fiscal year 
2015, through this process, DHS identified more than 970,000 possible 
overstays and sent them to the ICE Counterterrorism and Criminal 
Exploitation (CCE) Unit for further investigation. We conducted our 
audit to determine the effectiveness of ICE's information technology 
(IT) systems to review, track, and share information associated with 
visas.
 fragmented it systems hinder efficient and effective overstay tracking
    The myriad of information systems and databases used in DHS for 
visa tracking are not effective in identifying nonimmigrant overstays. 
Some of these systems and databases are ``stove-piped'' and do not 
electronically share information, resulting in numerous inefficiencies. 
For example, CCE Unit analysts use up to 27 distinct DHS information 
systems and databases to gather data on potential overstays, including:
  <bullet> CBP's Arrival and Departure Information System (ADIS) for 
        biographic information on travelers entering and departing 
        ports of entry;
  <bullet> ICE's Investigative Case Management System/TECS 
        Modernization for law enforcement information and case 
        management capabilities;
  <bullet> USCIS' Central Index System for data on individuals applying 
        for immigrant and nonimmigrant benefits and status, including 
        violators of immigration law; and
  <bullet> National Protection and Programs Directorate's Automated 
        Biometric Identification System (IDENT) to correlate biometric 
        data with associated biographic data.
    Despite some recent system integration efforts, ICE personnel has 
to conduct cumbersome and manual searches across these myriad systems 
to gather data for each individual, such as country of origin, 
immigration status, and criminal history. For example, CCE Unit 
analysts at ICE headquarters rely on approximately 17 systems, 
including 13 DHS and 4 external systems and databases, to compile a 
case file for each lead for investigation. Further, ICE personnel in 
the field used as many as 18 distinct DHS systems and databases, as 
well as approximately 5 external systems, to conduct investigations to 
accurately determine an individual's overstay status. Because these 
systems were each designed and built for a distinct purpose, these 
systems contain only the fields of information relevant for performing 
the functions necessary to support that purpose, leaving ICE agents and 
analysts to ``connect the dots'' when conducting investigative queries.
    The lack of integration poses confusion for the system users. For 
example, ICE personnel in the field are not always sure which systems 
to use to perform their specific job functions. Personnel we met at 
multiple locations expressed concerns that they are unaware of all 
systems available to them across DHS components and agencies, 
potentially limiting their effectiveness in carrying out their visa 
tracking responsibilities. Additionally, ICE personnel has to retain 
and use anywhere from 10 to 40 passwords, which is cumbersome as users 
may log into dozens of systems each week, all with separate passwords. 
The vast number of passwords and different protocols are difficult to 
remember and increases the potential for denial of access and system 
lock-outs.
    Further, ICE agents and officers face challenges using these 
systems to obtain real-time access to information about the immigration 
status of potential overstays, which is critical to properly validate 
whether or not a subject is in the United States legally at the time of 
investigation. ICE needs to know when a foreign national under 
investigation files a petition or application to change his or her 
nonimmigrant status (i.e., extend the time allowed in the country). 
However, obtaining timely immigration status information has proven 
difficult due to the unstructured manner in which data is stored. 
Specifically, USCIS employs nearly a dozen unintegrated systems that 
were individually designed to process a particular application rather 
than to support all transactions associated with a single applicant. 
Consequently, ICE personnel have to conduct searches in multiple USCIS 
systems to compile the complete history of an individual and determine 
his or her current immigration status. This can take several hours, or 
several days, depending on the case.
    Obtaining accurate information on immigration status is even more 
problematic when ICE personnel cannot gain access to some USCIS 
systems. When an ICE user cannot access a particular system, or in the 
event that immigration files have not been scanned or digitized, the 
user has to obtain the required information from USCIS personnel in 
hard copy. ICE agents and officers complain that the wait time to 
obtain needed files can sometimes stretch to weeks or more, which 
delays each case from moving forward and potentially results in 
investigations of overstay subjects who USCIS has already approved for 
changes of status.
    In 2006, USCIS created a consolidated search capability, the Person 
Centric Query Service, to provide a single search capability for 
immigration and naturalization applications and transactions. Although 
several ICE agents and officers found the service beneficial and 
comprehensive, personnel at four field locations were unaware of it or 
lacked access to the system. Other ICE users questioned the reliability 
or completeness of the data returned when using this query service. As 
a result, ICE users felt compelled to separately confirm the data in 
legacy systems and/or query for more in-depth information.
            Unintegrated Systems Used for Visa Overstay Tracking 
                    Persist in the Decentralized IT Environment
    The stove-piped systems used for visa tracking were inherited from 
the former Immigration and Naturalization Service (INS). With the 
creation of DHS in 2003, INS was split into three separate components: 
CBP, ICE, and USCIS. Each component carried forward the legacy INS 
systems it needed to accomplish its respective mission 
responsibilities. Over time, distinct IT infrastructures evolved within 
each of the components, resulting in dozens of parallel and highly-
specialized visa-related IT systems.
    In 2012, CBP began an effort to consolidate 34 disparate data 
sources into a single system, Unified Passenger (UPAX). This effort was 
meant to upgrade a CBP system currently used by ICE for overstay 
vetting, and further integrate the numerous systems owned by CBP, 
USCIS, ICE, and the Department of State. However, at the time of our 
audit, CBP had not identified all potential system users DHS-wide based 
on mission need. Consequently, the system was not accessible to ICE 
field users to support their overstay investigations.
    Despite efforts to improve visa system integration and information 
sharing, the DHS Chief Information Officer (CIO) has not provided the 
necessary oversight and management needed to overcome the fragmentation 
of its assets, as we have repeatedly reported.\2\ In 2013, the CIO was 
part of a Department-wide task force that examined how the vetting and 
sharing of information associated with visa overstays could be 
improved, which reportedly increased data sharing between at least two 
systems--ADIS and the Student and Exchange Visitor Information System. 
The CIO had several other methods for improving consolidation of agency 
IT investments, such as formal Department-wide IT system reviews, but 
these have not yet been fully executed for visa IT systems.
---------------------------------------------------------------------------
    \2\ Improvements Needed to DHS' Information Technology Management 
Structure, OIG-04-30 (July 2004); Progress Made in Strengthening DHS 
Information Technology Management, But Challenges Remain, OIG-08-91 
(September 2008); DHS Information Technology Management Has Improved, 
But Challenges Remain, OIG-12-82 (May 2012).
---------------------------------------------------------------------------
    In addition, further guidance and training is needed to support 
visa tracking in the field. Not all ICE personnel are familiar with the 
distinct functions and capabilities offered within each system. ICE 
field personnel expressed concern that they might miss information due 
to a lack of training on system functionality and features. While ICE 
field personnel have access to training on-line or through informal 
coaching methods, many in the field do not consider this training 
sufficient. In addition, ICE management has not provided field users 
with documented procedures on which systems should be used to perform 
various steps of the investigative process.
 lack of an exit system hampers dhs's ability to capture accurate and 
                        complete departure data
    In addition to the myriad stove-piped systems, DHS lacks a system 
at U.S. ports of departure to capture data on exiting visitors. ICE 
field personnel we interviewed commonly cited this as the most 
significant gap in the Department's ability to accurately track visa 
overstays. Although Congress has mandated that DHS implement an 
integrated system that provides foreign National arrival and departure 
biometrics for immigration control, enforcement, and reporting, CBP 
lacks the personnel, facilities, and technology needed to account for 
travelers leaving the country.
    For example, airports in the United States have no designated areas 
or checkpoints to collect biometric data for travelers departing the 
country. Likewise, biometric land departure information is not 
captured, as most travelers cross the borders to Mexico on foot or 
using their own vehicles and typically are not stopped for inspection. 
Additionally, biographic information is not regularly captured on the 
Southern Border. Nonetheless, CBP is able to reconcile a portion of 
travelers who arrive through the borders with Mexico and Canada when 
their reentrance to the United States confirms their previous 
departure. By agreement, the Canadian Government captures biographic 
data on individuals crossing the Northern Border and shares this 
information with CBP Border Patrol; however, it excludes data on 
Canadian citizens traveling from the United States.\3\
---------------------------------------------------------------------------
    \3\ United States-Canada Beyond the Border: A Shared Vision for 
Perimeter Security and Economic Competitiveness, Action Plan, December 
2011.
---------------------------------------------------------------------------
    Congress required DHS to implement a biometric air entry-exit 
system for tracking foreign nationals by 2009.\4\ To that end, DHS 
established the U.S. Visitor and Immigrant Status Indicator Technology 
(US-VISIT) program in 2003. This program was created to develop a means 
for collecting biographic and biometric data on foreign nationals 
passing through U.S. airports for entryand departure. Despite multiple 
pilots of this and other programs, however, virtually no progress was 
made. In 2013, Congress transferred responsibility for the biometric 
exit system to CBP.\5\ Since that time, CBP has initiated several 
pilots to test different technologies and capabilities, such as facial 
recognition, iris scans, and mobile fingerprint collection devices. At 
the time of our audit, a biometric exit system pilot was underway at 
Atlanta's Hartsfield-Jackson International Airport. CBP plans to begin 
implementing the biometric exit system in 2018 at a number of airports 
with the highest volume of travelers.
---------------------------------------------------------------------------
    \4\ 8 U.S.C. 1187 (8)(A)(i).
    \5\ Consolidated and Further Continuing Appropriations Act, 2013, 
Pub. L. No. 113-6 (2013).
---------------------------------------------------------------------------
    In the mean time, without a complete exit system that includes the 
ability to obtain biometrics from visitors departing the country, DHS 
has had to rely on third-party biographic data, such as commercial 
carrier passenger manifests, to confirm an individual's exit from the 
country.\6\ Identifying overstays in this manner involves matching 
third-party exit data against the biographic and biometric data 
collected by CBP at land, air, and sea ports of entry. For example, CBP 
uses the IDENT system to capture biometric data (e.g., fingerprints). 
Further, CBP receives commercial passenger and crew biographical data 
directly from air and sea carriers through APIS prior to the passenger 
and crew's arrival in or departure from the United States. APIS then 
shares the data with ADIS, which works as a central repository and 
automatically matches arrival and departure records to identify 
potential overstays. Both ADIS and APIS share information with the 
Automated Targeting System-Passenger, which vets arrival and departure 
information and is used by ICE personnel to confirm a passenger's on-
board status.
---------------------------------------------------------------------------
    \6\ Commercial carriers are required by law to submit passenger 
manifests to CBP, which are then recorded as arrivals or departures 
from the United States.
---------------------------------------------------------------------------
    The effectiveness of this process depends on the accuracy of the 
records DHS obtains from third-party commercial carriers, which 
occasionally provide incorrect departure or arrival status on 
individuals. Although CBP has reported that ADIS has over a 90 percent 
match rate for individuals who enter the country by any given means and 
then depart by air, officials acknowledge data quality issues with 
specific commercial airline carriers. ICE personnel also complained of 
multiple instances of false reporting on departures. For example, ADIS 
sometimes falsely reports that individuals are still in the country 
after they have already departed, or that individuals have left the 
country when they are still physically present in the United States. 
The latter occurs when airlines or other commercial carriers mistakenly 
report that individuals were on board when they were not.
    False departure information has resulted in ICE officers closing 
visa overstay investigations of dangerous individuals, such as 
suspected criminals, who were actually still in the United States and 
could pose a threat to National security. For example, one officer 
stated that a suspect under investigation was listed as having left the 
country when, in fact, he had given his ticket to a family member and 
was still residing in the United States. ICE agents and officers were 
unable to tell us how often subjects of investigations are incorrectly 
recorded as having left the country.
 unintegrated systems and the lack of an exit system resulted in poor 
              overstay reporting and inefficient tracking
    Given the unintegrated systems and the lack of a biometric 
departure system, DHS cannot ensure it accurately accounts for the 
total number of overstays in the country in its annual report to 
Congress, known as the Entry/Exit Overstay Report. DHS completed its 
first and only overstay report in 2015, listing 527,127 nonimmigrant 
visitors as overstays, out of approximately 45 million visitors in 
2015. However, DHS has acknowledged that this number does not reflect 
the full extent of visa overstays, as it does not include individuals 
who traveled to the country on student visas or anyone who crossed the 
border by land from Canada or Mexico. Because of unreliable departure 
data collection at these ports of entry, the Department could not 
account for these potential overstays. Therefore, the report was 
limited in that it only included individuals traveling to the United 
States by air or sea on business travel or tourism.
    The Department also could not provide assurance that all 
nonimmigrants who overstayed their period of admission had been caught. 
DHS's inability to accurately confirm the departures of all 
nonimmigrants from the United States at the end of their authorized 
admission periods prohibited ICE agents and officers from fully 
accomplishing their immigration enforcement and removal Department of 
Homeland Security responsibilities. ICE agents and officers arrested 
only 3,402--or less than 0.4 percent--of the people who potentially 
overstayed their visas in 2015.\7\
---------------------------------------------------------------------------
    \7\ Of the 971,305 leads sent to ICE's CCE Unit that were not 
closed through automated vetting or manual closure, 3,402 arrests were 
made. Of the 3,402 individuals arrested, 777 were cases sent to the 
field in previous fiscal years.
---------------------------------------------------------------------------
    The inefficient systems and management processes contribute to case 
backlogs and inefficient use of resources. ICE Homeland Security 
Investigations (HSI) field personnel stated they routinely spent a 
significant amount of time--several days in some instances--to manually 
extract and compile data to support a decision on whether to actively 
pursue a potential overstay. Working in this manner contributes to the 
inability of ICE's CCE Unit to address and close a backlog of more than 
1.2 million cases that were in continuous monitoring from previous 
fiscal years as well as fiscal year 2015. HSI agents in the field have 
also experienced increases in their workloads as the number of overstay 
leads has increased by 65 percent over the last 3 years. Specifically, 
the number of leads that the CCE Unit sent to HSI agents in the field 
increased from 6,033 in fiscal year to 9,968 in fiscal year 2015.
    Further, ICE personnel lost a significant amount of time 
investigating individuals who should not have been considered 
overstays. More than 40 percent of the cases sent to HSI agents in the 
field were closed because the individuals had departed the country or 
had applied for or received immigration benefits, such as a visa 
extension. For example, 17 percent (1,649 of 9,968) of the leads sent 
to HSI field agents for investigation in fiscal year were closed after 
agents determined that the subjects had, in fact, already departed the 
country. Another 25 percent (2,499 of 9,968) were closed upon agents 
learning that the subjects had applied or been approved for immigration 
benefits. In one case, an ICE officer estimated that he spent more than 
50 hours on a single suspect, only to find that the individual should 
not have been categorized as an overstay because he had applied for a 
USCIS benefit.
                               conclusion
    Timely identification, tracking, and adjudication of potential visa 
overstays is critical to DHS's public safety and National security 
mission. The Department must equip its personnel with the tools and 
training required for the vital work of tracking visitors who overstay 
their visas. Until DHS takes the steps needed to improve system 
integration and complete its biometric exit system, efforts to track 
and enforce the increasing number of visa overstays will be hindered.
    We made five recommendations to the DHS CIO and ICE CIO to:
  <bullet> Eliminate duplication and improve information sharing across 
        components, and align system access according to mission 
        requirements;
  <bullet> Compile an up-to-date inventory of all IT systems across the 
        Department that ICE agents and officers can use for visa 
        tracking, and provide documented guidance on the use of each 
        system;
  <bullet> Provide necessary training to ICE personnel on IT systems 
        used for visa tracking;
  <bullet> Assess current plans to expedite the development and 
        implementation of the biometric exit system; and
  <bullet> Evaluate the extent to which data used to develop overstay 
        estimates is accurate and reliable, and identify how data may 
        be improved.
    The DHS CIO and ICE CIO concurred with our recommendations.
    DHS OIG will continue to exercise diligent oversight over 
immigration enforcement, paying particular attention to the 
Department's progress implementing a biometric exit solution. 
Consistent with our obligations under the Inspector General Act of 
1978, we will keep Congress fully and currently informed of our 
findings and recommendations.
    Ms. Chairwoman, this concludes my testimony. I am happy to answer 
any questions you or other Members of the subcommittee may have.

    Ms. McSally. Thank you Mr. Roth.
    I now recognize myself for 5 minutes for questions. I will 
tell you, gentlemen, listening to your testimony it is deeply 
concerning, the situation that we are in. It is troubling. It 
is frustrating. It is infuriating.
    I mean, this is a significant issue that we need the will 
and the capability to address, right? From my view, and, you 
know, I look at things often--I was a fighter pilot--we have 
two main challenges.
    The first is we need to make sure we have good data and 
good information. We need to know who has overstayed and who 
hasn't overstayed. So that is on the data front so our 
situation awareness is high and we have good data.
    Then the second piece is once we know who has overstayed, 
what are we doing about it? How are we using your resources, 
Mr. Settles, to prioritize, so that you are not wasting time 
and prioritizing in order to address the issue for enforcement 
with the highest priority being those that are potential 
National security risks.
    In both these areas, we have had significant failures and 
challenges that bring us to this place of the report. We 
appreciate the information in the report, but we still just 
have so much more to go to address the will and the capability 
in both of these areas.
    We have shown, Mr. Wagner, as you said, the will in 
Congress. We have funded money for a program without a plan. We 
are now anxiously awaiting, you know, for the will and the 
capabilities to increase in these areas.
    So, Mr. Wagner, I want to start with you. On some of the 
challenges you have had in the past is when we have had 
biographical data focus versus biometric, it is still relying 
more on the airlines and private industry to be able to give 
information to something that many believe is an inherent 
Governmental responsibility.
    So talk to me about this facial recognition approach and 
how that is actually going to be implemented? What is in the 
airline industry and what is the Government doing? Then how is 
that also impacting U.S. travelers?
    Are we getting our facial recognition collected and then 
brought somewhere into a Government database, you know, because 
we are not foreign travelers? How does that all work?
    Mr. Wagner. So on the manifest issue with the third-party 
data, I mean, we find it is very accurate. This is data that is 
collected by the airline when you check in. It is verified by 
the airline when they give you your boarding pass. It is 
verified by a TSA officer when you go through the checkpoint 
and they compare it against your boarding pass.
    It is the basis we do all of our National security checks 
against, for your no-fly lists and your selectee list, 
including on all your domestic travel.
    Our work with it, adding biometrics to it, has found that 
that data is very accurate, but, true, the vulnerability 
remains of an imposter departing the United States under 
somebody else's biographic data. So the biometrics are 
essential to closing that vulnerability in doing it. But that 
doesn't mean the data we are using today or relying on today is 
inaccurate.
    I mean, this is the biographic data that we caught the 
Times Square bomber leaving the United States on, you know. But 
if he flies out under somebody else's U.S. passport, we may not 
catch him unless somebody within looks at the photograph very 
closely.
    So the facial recognition will allow us to lock that down 
and close that vulnerability. So our plan this year--we have 
already got pictures on everyone from their arrival records. I 
will address your U.S. citizen comment, too.
    But what we can do is, when the airline provides us that 
manifest, is we will pull all of the faces that we have in the 
DHS database and put them in its own secure database. When the 
person goes to board the plane, it is as simple as just taking 
their picture and querying against that small subset of data 
you have put aside.
    So this is really quick and really easy to do, and it is as 
simple as putting a camera at the departure area to do this. 
Now, U.S. citizens are included in that because just because 
someone presents a U.S. passport, we still have to determine 
they are a U.S. citizen.
    We can have an officer there or an airline person there 
standing and comparing the document manually, or we can use the 
algorithm to make that match.
    Once we confirm it is a U.S. citizen, we discard the data, 
because they are not subject to the biometric exit requirement. 
But we do have a responsibility to determine if a person is a 
citizen and not an imposter to the passport that they are 
presenting.
    Ms. McSally. Does that happen automatically or manually?
    Mr. Wagner. That would happen automatically with the facial 
recognition software.
    Ms. McSally. OK.
    Mr. Wagner. We take a picture. We compare you against the 
photograph you have already provided to the U.S. Government for 
purposes of travel. We compare you against your passport photo 
that we have from Department of State, and if you match against 
that, we discard the data because you are confirmed now to be a 
U.S. citizen.
    So the plan for this year is to build out the back-end 
services and build out the ability on a National basis to take 
all of the manifests in, be able to populate the galleries and 
build the database space to store this and then work on the 
infrastructure to be able to match that.
    So you need the space to store the data. You need to build 
the services to retrieve the photos out of IDENT or OBIM's 
database, stage them and create that gallery per flight.
    Then you have got to procure the matchers, the algorithms 
from the private-sector technology companies that build these. 
You have got to implement that, and then you have to build a 
protocol between the camera at the gate and getting into that 
gallery to match and have a response back.
    So what we are working with the--while we are building that 
out, and that will take us the rest of this calendar year, 
really, to build that out. Once we build that, we are working 
with the airlines and the airports on their own modernization 
plans because they are looking at self-boarding gates. They are 
looking at facial recognition for boarding passes, for self-
tagging checked bags.
    So we want to combine with them so there is not this 
gauntlet of cameras you go through just to board the plane, but 
it is one single photograph that we will be able to take care 
of several purpose at once, including the biometric exit.
    All the same data runs in the background. The fingerprints 
run in the background. The biographical queries all run in the 
background. You are just pointing it to the same vetting 
results through matching the face instead of actually reading 
the passport.
    So the plan is to combine what we are doing with what the 
airlines and the airports want to do and build that out over 
the course of this year and into next year so we can really 
leverage each other's technology and we can provide the 
platform. We can provide the service.
    Now, who owns the front-end piece? Once we build this 
service out, it is a matter of buying cameras and plugging them 
in. Our plans include looking at TSA and the checkpoint and 
some possibilities to helping them with some of their work, 
because you compare against the same document.
    You know, looking at other services within that airport, 
provided we could work through the privacy requirements of 
doing so, but you should be able to match against that passport 
or that visa photo all through the airport, anyplace you would 
currently show an ID. Now----
    Ms. McSally. So I am almost out of my time. I saw there are 
no additional funds for this project in the fiscal year 2018 
budget request that just came out, so do you have the funds 
already from what we have allocated? What is the time line to 
complete all this?
    Mr. Wagner. Correct, so we have enough money this year and 
next year to get the platform built and get this started. We 
will be demonstrating six to eight sites, up to maybe a dozen 
sites this summer, to show the stakeholders how it works and 
start to work on their own modernization plans to fit it.
    So this year we will be building out that back-end service, 
that platform, stage those photos, procure the space and 
procure the algorithms to do the matching. We think there is 
enough money there to do the complete air environment starting 
this year into next year.
    Land border is a different challenge, so----
    Ms. McSally. Got it. OK, so we will circle back afterwards. 
I am out of time, but I do want to know the full time line and 
the full cost for air and sea for this to roll out.
    The Chair now recognizes Mr. Vela for 5 minutes.
    Mr. Vela. Oh, Mr. Roth, I want to make sure that I 
understand your testimony and subsequently I am curious as to 
what the Department's feelings are about it because before you 
began your testimony, I assumed that the 739,000 figure that we 
had for 2016 would be precise.
    But as I understand your testimony, you are suggesting that 
that is not likely so. Is that right?
    Mr. Roth. That is correct, and I can explain why. There are 
a couple areas in which inaccuracies get injected into the 
system. With all respect to Officer Wagner, I think that the 
airlines do an OK job with regard to providing passenger 
manifests.
    But during our audit we found that that accuracy rate was 
in the low 90 percents, somewhere between 92 percent and 95 
percent. It seems pretty good except if you are talking about 
50 million people, 5 percent of 50 million is still a 
significant number of people.
    The other thing that the report, and it is very up-front, 
it acknowledges the fact that it does not include the land 
border, which obviously is a significant issue. This year, of 
course, they included students, which they hadn't last year so 
we commend them for gradually increasing the accuracy.
    But I think when we are talking about this level of numbers 
of travelers there are going to be inaccuracies here. What we 
found, for example, is the cases that got shipped to Homeland 
Security Investigations for overstays, and these were the high-
priority cases, 40 percent of them either already got some sort 
of immigration benefit or had left the country.
    In other words, we thought that they were overstays and 
then once they got investigated they weren't overstays. So 
there is going to be a significant amount of inaccuracy in 
these kinds of numbers.
    Mr. Vela. So are you saying that that figure is probably 
about 90 percent accurate or----
    Mr. Roth. That is the problem is we can't tell exactly how 
accurate it is, and that is the whole nature of the problem. As 
I said, once we took a look at the accuracy of the numbers that 
we got from the airlines, we saw that that was somewhere in the 
low 90 percent accuracy rate. But again, that is an estimate.
    We can't estimate what kind of volume we are talking about 
at the southern land border, for example, or the northern land 
border, excluding Canadians, who will not share that 
information. So again, there is a lot we don't know, so I would 
caution or I would exercise some caution believing the 
accuracy, the specific accuracy of these numbers.
    Mr. Vela. So Chief Wagner, what are your thoughts on that?
    Mr. Wagner. So the report didn't include the airline 
manifest data or how it was accounted for or received from the 
airlines, so I don't know how the 90 percent figure was 
calculated. That really wasn't in our report.
    What I did see in the report was some ICE agent case data 
from fiscal year 2015, but there was no indication of how old 
or stale that data was. Were those cases from 2015 or 2014 or 
2013? So it is hard, really, to say about the accuracies of 
that data without having the analysis of what actual data was 
received and how it was calculated, other than some, you know, 
anecdotal statements from the ICE agents about how complicated 
it was.
    So there was a lot of summaries, judgments made based on 
anecdotal information. I really didn't see the data analysis 
behind it.
    Now, as far as the land border goes, sure, you know, 250 
million land border travelers last year, but once you take out 
the Mexican citizens and the Canadian citizens the numbers are 
very small. You know, out of 190 million, and this is on 
arrivals, land border travelers last year, just over 400,000 
were non-Mexican citizens and not American citizens, very small 
number.
    On the Northern Border, out of 60 million travelers, there 
were about 1.1 million non-Canadian, non-U.S. travelers. So we 
think this is a manageable subset to start with. You know, we 
think there are manual reporting requirements we can put in for 
that same population if they depart the land border, you know, 
as their final departure from the United States.
    You know, those numbers will be even smaller than these 
numbers because these include the--workers and the people that 
cross back and forth to, we will call them, you know, third-
country nationals at this point.
    So we think that is a manageable subset, but true. A lot 
more people cross the land borders but it is a lot of, as you 
know, it is the commuting traffic. It is a lot of local 
community going back and forth who wouldn't be subject to 
biometric exit anyway.
    Mr. Vela. Thank you.
    Ms. McSally. The Chair now recognizes Mr. Barletta for 5 
minutes.
    Mr. Barletta. Thank you.
    Mr. Wagner, for years, you know, I have been calling for 
the Congress and the administration to follow through on one of 
the key recommendations of the 9/11 Commission report to 
complete a biometric entry-exit screening system, which they 
called ``an essential investment in our security.''
    As noted earlier, as many as four of the nine hijackers 
violated the terms of their visas and/or overstayed. We have 
seen this pattern continue in other terrorist plots.
    Biometric entry-exit means collecting biometrics on entry 
and exit at land, air, and sea. One gaping hole in the plans we 
have heard about today is land ports of entry where about two-
thirds of travelers pass through.
    Can you please speak to plans to collect biometric entry 
data at land ports of entry? Why aren't we verifying the 
identity of land arrivals biometrically?
    Mr. Wagner. So land arrivals are collected biometrically 
when someone leaves that border zone on the Southwest Border 
or, you know, Canadian citizens on the Northern Border are not 
subject to the biometric collection. So any third-country 
national coming across the Canadian border we would collect the 
biometrics.
    On the Southern Border, it is any Mexican citizen that 
wants to proceed past the border zone, which is different miles 
in different States, and then any third country nationals that 
would come in.
    I gave you the numbers on the third-country nationals on 
the Mexican border. For Mexican citizens, you know, it is just 
over 15 million last year, so it is a pretty significant 
number, but all of them come in, have their biometrics 
verified. They have already been taken by State Department when 
they got the visa. We verify who it is.
    So the plans on departure would be start with the third-
country nationals and it is a very manageable group. Set up a 
manual reporting requirement for them. Have them come in and 
give us their biometrics and we confirm them.
    The premise of technology in the vehicle lanes, there is 
just nothing yet, so we are testing some cameras that can do 
facial recognition in through a vehicle. We haven't seen 
anything that is commercially available yet, but for 
pedestrians I think we can do that using the same system we are 
building for airports.
    Mr. Barletta. OK. Thank you.
    Mr. Dougherty, it is good to see an updated visa overstay 
report, which was more complete than the one issued last year. 
That being said, it is noted that this report does not cover 
all foreign visitors to the United States, such as those that 
enter through the land ports of entry.
    It also does not provide the total estimated in-country 
overstay population that are here now. It is a snapshot of time 
of those foreign visitors who are expected to depart in fiscal 
year 2016 and those who did not do so.
    How do you plan to use the information in the new overstay 
report? What do you think is the most effective way to address 
the problem of overstays?
    Mr. Dougherty. I personally think that a better means of 
communicating with people who are here on visas should be 
explored. I think we are doing that now. I think CBP is looking 
toward pushing something out on your phone that says, hey, you 
are almost done. I think it would be nice if the sending 
countries would do the same thing.
    I know if I was on travel and the host country was telling 
me that it was about time to go, and my own Government was 
telling me the same, that would motivate me to get going.
    I think that in terms of compliance and getting people to 
voluntarily leave, if their intention is to come here and 
overstay we need to do a better job of understanding whether or 
not that is their intention on the front end. So if we are 
going to be doing screening and vetting in a more sort of 
robust fashion, how does that translate into real life?
    I think part of it is going to be probably increasing 
training for those individuals who actually do interview people 
who are intending to come to the United States to better 
understand their intent.
    That is, as I mentioned in my opening statement, part of 
the Executive Order is that the interagencies getting together 
and looking at whether or not we can do a better job of 
determining intent and perhaps denying admission to those 
people who would intend to overstay.
    So we have got in a sense a little bit of a carrot, 
perhaps, with notifying people, hey, you are almost done. But 
then there is the stick, which is we can't let you in because 
basically I cannot determine based on the colloquy that you and 
I are having right now that you are not going to the United 
States under whatever visa category, that you don't intend to 
just overstay.
    Mr. Barletta. OK.
    Thank you, Madam Chair.
    Ms. McSally. The gentleman yields back.
    The Chair now recognizes Mrs. Demings from Florida, for 5 
minutes.
    Mrs. Demings. Thank you so much, Madam Chair.
    Mr. Wagner, you talked about the operational model in 
Atlanta and the plans for further buildout at 6 to 10, I 
believe, additional airports. What portion of the process are 
the stakeholders, the airports, the airlines willing to own and 
what portions will be CBP's?
    Mr. Wagner. So CBP will receive the airline manifest 
information about who checks in for a flight just as we do 
today. We will build a gallery of photographs based on the 
holdings, the data we have already got from people's arrival 
information where we took their picture.
    We will stage that in a gallery in a secure computer 
database. We will procure a matching algorithm to be able to 
match a received photograph against that gallery. Now, who owns 
that front-end camera and who takes that picture? I think that 
could be--the Government could do that or the airline could do 
that.
    Mrs. Demings. What about cost-wise?
    Mr. Wagner. The cost of the cameras would really be the 
inexpensive part of this. The cost would be the personnel.
    Now, CBP has to staff each one of the 5,000 departure gates 
at all the airports or look at restricting departures to only 
locations we could staff.
    Mrs. Demings. How many additional personnel or officers, 
personnel, would you need to implement the program Nationally, 
roughly?
    Mr. Wagner. That would be thousands. That would be 
thousands of officers to do that or pull them from the inbound 
lanes, but creating additional delays there.
    So if the airlines are already going through a boarding 
process and verifying passports manually, because that is what 
a lot of the gate agents do now is they have to look at that 
passport, because wherever they are going that country also 
holds them to board the right person.
    If we can help the airline with that requirement and 
confirm their identity based on our records, it helps the 
airlines with their resources. So we want to build a platform 
that if an airline is looking at modernizing and doing facial 
recognition, which we are in talks with an airline right now 
about doing that for a boarding pass.
    Well, why not link them up and just have one camera, one 
picture of the traveler taken that provides both benefits, 
boarding the plane and doing the biometric exit so that the 
traveler wouldn't have to go through two cameras and having a 
CBP officer standing there doing what the airline person is 
doing.
    So should the airlines choose to do that, we want to build 
a platform that could accept their technology and allow them to 
do that. If not, the Government could procure that, but then 
the cost will go up. But then the resources and the manpower to 
do that would be astronomical.
    Mrs. Demings. OK, thank you.
    Mr. Dougherty, how does the Department ensure that DHS 
field personnel are adequately trained to identify and 
investigate incidents of individuals who may be in the country 
longer than the term of their visas?
    Mr. Dougherty. Ma'am, I would defer a portion of that 
question to my colleagues within ICE to answer. I do want to 
address one thing if I could regarding Secretary Kelly's 
interest in bringing on many new ICE officers.
    As a former Marine general he is very interested in the 
ground troops. He is very interested in the quality of their 
life, the equipment that they get and principally in the 
training that they get as well. So his objective is to add as 
many folks as we can while keeping a high quality of recruits 
coming into ICE to assist as ICE agents, the number that has 
been placed out in public is 10,000 people over time.
    So his intention there would be to ensure that they were 
very, very well-trained. He believes in professionalism and it 
is a strong characteristic of his personality. The remainder of 
your question, if I could, I would defer to Mr. Settles.
    Mrs. Demings. Mr. Settles.
    Mr. Settles. Yes, thank you. I guess from looking at the 
report it is kind of a two-part question. One is training in 
the systems and then the other part is training on how to 
conduct the investigations. I know that, you know, the main DHS 
and ICE CIOs came forward with a plan on the system training 
that is supposed to be implemented by, I believe, April 30, 
2018. It was, you know, concurred with by OIG.
    On the other side, like I mentioned, when I took over this 
job and I saw that there were some agents out there, and again, 
I know there may be new agents, and these are difficult cases. 
I mean, the people don't want to be found, especially if they 
came here, you know, to hurt us, for National security or 
public safety concerns, or if they just ended up overstaying 
their visa, they are not going to make it easy for us.
    So just like any criminal investigation, you know, some of 
them we can adjudicate in a few hours, some of them take a long 
time because the people just don't want to be found and then we 
have to go through it.
    As far as the number of systems, we do have work to do. 
There is no doubt about it. I will say we have come a long 
ways, though, from the days I can remember of the systems that 
I used when I was a field agent and how you had to type in 
these long strings of almost DOS-like codes in order to be able 
to search things like criminal records.
    We are moving in our lead track, which is the CTCEU. We 
have already moved to it being a single sign-on and person-
centric, which is very important because it allows us to look 
at everything that that person did, not just the event or the 
visa that they filed.
    But, you know, we are going to--we have already sent out 
the handbook. It seemed like there was some confusion that 
there was at least one agent that didn't, you know, understand 
how to do these. The handbook gives detailed information.
    The leads we actually send out, the reports of 
investigation, says it is about 130 employees that, you know, I 
have here and in the National capital region that ingest these 
leads, the 1.2 million leads. After the automated screening 
then they go through, you know, and check all of the systems 
manually.
    Part of the reason they do that is because, I mean, the 
system is only as good as the information you put in it. Part 
of that is to amplify the information, make it better and make 
connections that the technology can't do yet, you know, along 
the lines of looking through a system and finding a speeding 
ticket and seeing that it adds another, you know, another 
address.
    Right now you are going to have to log on to a different 
system in order to be able to do that because there are 
concerns of third agency and privacy and other things. So there 
is always going to be a lot of systems. I mean, I think that is 
why these guys and gals get paid as----
    Mrs. Demings. OK. Thank you so much.
    Thank you, Madam Chair.
    Ms. McSally. The Chair now recognizes Mr. Rutherford from 
Florida, for 5 minutes.
    Mr. Rutherford. Thank you, Madam Chair.
    Mr. Settles, in Mr. Roth's numbers, and again this kind of 
goes back to the issue we were just talking about, it says 0.4 
percent of the overstays were actually arrested. Now, that is 
3,402. That is obviously a pretty small number.
    To kind-of follow up where you were at, and I want to ask 
just a couple of brief questions. No. 1, do they log into NCCIC 
and look for these overstays being in jails throughout the 
country?
    Mr. Settles. Yes, sir, they do. Also the sister agency to 
HSI, ERO has a program that goes around to the jails and, you 
know, puts detainers on individuals----
    Mr. Rutherford. OK.
    Mr. Settles [continuing]. That are within the jails.
    Mr. Rutherford. When Mr. Wagner builds out the facial 
recognition program, is there a way for 287(g) agencies to 
actually tap into that and let you know instead of--because if 
you check NCCIC today they may not be in there. They may be in 
there tomorrow, though. So unless you are continuously checking 
you are really missing the boat.
    But if we had those agencies out there helping you hit a 
database of overstays, then we identify them for you and tell 
you come pick them up. That way we have thousands of officers 
all over the country helping to capture this population.
    So my question is when this database becomes available, 
will you have to be a 287(g) agency to get into that database 
or can some other structure be put up like through the fusion 
centers or something like that?
    Mr. Settles. You know, I don't know the answer to that yet 
because we are not there to that point yet, but I think it is a 
great idea. I mean, it would be very helpful for us for the 
departments that want to work with us to be able to run that 
information and send it back to us.
    It would also be helpful when the technology comes on-line 
to where it can continually search and you don't have to go in 
there every day, like you said, and rerun the name when the 
technology comes on-line. That we just put it in there once 
and, you know, it is out there looking.
    Mr. Rutherford. Mr. Wagner.
    Mr. Wagner. But that database already exists. That exists 
today. We have collected the biometrics, the fingerprints, the 
photographs of every, you know, non-citizen that has arrived in 
the United States with the exception of Canadian citizens. So 
that is already there.
    All we are building with this is when the airline tells us 
who to expect to fly, because that database is 200 million 
identities.
    Mr. Rutherford. Yes.
    Mr. Wagner. Probably a billion photographs. So it is 
difficult just to send a picture in and say who is this or send 
your fingerprints in and say who is this? You have got to read 
the passport first to find it, right, because the databases are 
too big the way they have been architected over time.
    What we will do is when we get the airline manifests is we 
go and pull all those biometrics out and just stage it 
somewhere so you have a very small file you are searching 
against. If they're not found in that file then we start over 
and start to look, OK, who is this person really?
    But I think a lot of those capabilities already exist to 
run fingerprints and to run photographs into that main 
database, which is run by DHS's OBIM's office to do that.
    Mr. Rutherford. But again I go back to the question, same 
question I had for Mr. Settles. If the officers aren't 
accessing those databases every day, those databases are 
changing every day as far as arrests. Who is in our jails? Do 
local jails have access to that database?
    Mr. Wagner. I don't exactly know, but what we will do is we 
will run a lot of recurrent vetting or perpetual vetting 
against the databases that we have. So we take State 
Department's visa database and every day we run that against 
new information.
    We take the visa waiver travelers----
    Mr. Rutherford. OK.
    Mr. Wagner [continuing]. Who has been given an ESTA. We run 
that all the time against new pieces of information.
    If the TSDB, the terrorism watch list gets a new entry, we 
get that and we run it against all our holdings to see do we 
know this person? Does the U.S. Government have any info on 
this person?
    Mr. Rutherford. OK.
    Mr. Wagner. Do they have a visa? Are they in the country? 
Are they out of the country or are they an overstay? So if when 
we receive that information at our National targeting center 
and we see that person has a visa, we look to see have they 
traveled to the United States and are they here?
    If they are here, we are passing it off to ICE to say here 
is a----
    Mr. Rutherford. Right.
    Mr. Wagner [continuing]. TSDB hit. The person is still in 
the country. We will also call State Department and have that 
visa canceled----
    Mr. Rutherford. So let me ask you one other question, too, 
because I know sometimes the numbers that aren't included are 
as important as the ones that are. The 0.4 percent is those 
overstays that were actually arrested.
    Do you have a clearance number for your agents, Mr. 
Settles? I think, who even though they only arrest 0.4 percent, 
how many of the overstay cases they investigate do they 
actually clear either by arrest or especially clear because 
they find out they are out of the country or, you know, they 
passed away or, you know, whatever the exceptional 
circumstances might be?
    Mr. Settles. Yes, I mean, again, so when they come in to us 
we are looking for that derogatory information and for National 
security and public safety. The ones that don't meet our 
criteria we send to ERO. That is about 679,000.
    Mr. Rutherford. Yes.
    Mr. Settles. Of the leads that come into us, then we do the 
manual vetting and we close about 350,000 because, again, like 
we talked about, this is a snapshot in time.
    Mr. Rutherford. Right.
    Mr. Settles. People are coming and going every day.
    Ms. McSally. The gentleman's time has expired.
    Mr. Rutherford. Yes, I----
    Ms. McSally. Can we follow up in a second round?
    Mr. Rutherford. Yes, I just didn't want to leave the 
impression that you only know about 3,400. You know a lot more 
than that.
    Mr. Settles. Yes, sir.
    Mr. Rutherford. Thank you.
    Ms. McSally. The Chair now recognizes Ms. Barragan from 
California.
    Ms. Barragan. Thank you.
    Mr. Roth. I want to go back to you about this issue of 
whether the numbers we have are accurate or not. Can you tell 
us the numbers that we are given, what is the basis on you 
saying they are not accurate?
    Mr. Roth. Excuse me. Yes, you know, we do this audit and we 
talk to CBP so the numbers that I gave you are cited in our 
report. Those are numbers that CBP themselves gave us, the low 
90 percent to 94 percent accuracy rate of the passenger 
manifests that they get, CBP itself says is between 90 percent 
and 94 percent accurate.
    We put that in our report. We give it to CBP. CBP has an 
opportunity to object to that, say it is not accurate. They did 
not object to that. This was referenced by our auditors.
    According to Government auditing standards we believe that 
that is an accurate number of people who are either 
underreported, meaning they have not left even though the 
airline records show that they have left or overreported, 
meaning that the airlines failed to show that they left.
    So either way, it is a problem for our visa overstay issue. 
Now, that is corroborated by the fact that when we went out to 
the field and we talked to the ICE agents, the folks who were 
actually--the HSI agents who are actually doing the work, they 
found that a lot of their cases, in fact, were people who had 
left the country. It was like 17 percent of their caseload.
    So we have it both ways, both from CBP data that CBP itself 
gave us, as well as from, you know, anecdotally from HSI agents 
who say, hey, you know, the data that you have given us, these 
files that you are giving us are bad. So that is how we can 
tell.
    This is through no fault of either CBP or ICE or DHS that 
this happens. This is the law of large numbers. When you are 
talking about 50 million people at, you know, a number of 
different ports, these kinds of errors are going to happen.
    Ms. Barragan. Thank you. Do we know how long--you said that 
there are times where you go to the investigators and they 
start to investigate and they realize that there is no 
overstay. Do we know how often that happens and how much time 
we waste in doing that or how far along in the process we find 
that out?
    Mr. Roth. We looked at that in our audit report and for 
fiscal 2015, which is the year that our audit looked at, it was 
a 40 percent rate. So about 25 percent were individuals who had 
received some sort of immigration benefit, so they weren't, in 
fact, overstaying. They were complying with the immigration 
law. The remainder were out of the country by the time the HSI 
agents received that. That is the data that we compiled based 
on our audit looking at HSI data.
    Ms. Barragan. Mr. Settles, do you know what the timing is 
like on, let's say somebody overstays their visa, when ICE 
would actually get this report that there is an overstay? Does 
it take weeks? Does it take months? Is it a year?
    Mr. Settles. It used to take weeks and now we have reduced 
it down to about 3 to 5 days because you remember it has got to 
come in and be automated, vetted, you know, on an automated and 
a manual process to both intelligence holdings and, you know, 
like we have said quite a few other databases currently.
    Then we package it up and send it out to the field. So we 
cut it down from 2 to 3 weeks to 3 to 5 days, which has been a 
significant achievement.
    Ms. Barragan. I guess my concern has been, you know, you 
hear about the reports of the 9/11 attackers or people who have 
overstayed their visa--I mean--makes this a critical issue that 
we need to actually invest dollars in as opposed to a wall per 
se.
    Once you get that list, I imagine there are a lot of people 
on that list. How are you going to determine who is a priority? 
Do you look at people coming from certain countries? Do you 
look at, you know, how long they have overstayed their visa? 
What is the process?
    Mr. Settles. So we get about 3,000 leads a day that comes 
into us either from CBP or from SEVIS and other sources. We 
chair this board called the Compliance Enforcement Advisory 
Board or the CEAB, and that has other law enforcement agencies 
like FBI, CBP, other agencies in the intelligence community and 
they help us set a ten-tiered priority matrix that we bounce 
that off.
    Tier 1 are the people that we know they are some type of 
National security or derogatory information. The other tiers 
could be because of travel patterns of concern, countries of 
concern.
    One of the things that after looking at both the overstay 
report and the OIG report that we are going to take, I have 
asked my team to take to this Compliance Enforcement Advisory 
Board is, you know, maybe looking at countries adding in that 
have a very high rate of overstay as another factor.
    But we bounce it off of those and that gives us a 
prioritized list and then that is what we send out first. We 
continue to monitor the other, but it, I mean, if you don't 
mind me saying, it really is--and for the HSI side it is a 
resource issue because our agents are doing other things.
    They are investigating child exploitation where there is 
actually a victim. You know, we have to prioritize those things 
that we get information that a drug load is coming in that day.
    Now, I am not saying that if we knew that an overstay lead 
had anything to do with National security or something that was 
more important, you know, but if it is a fraud case that we 
have in an overstay and the agent, you know, is needing to go 
out and rescue a child victim we are going to prioritize that.
    So I mean, that is kind of the different layers of how we 
get down to prioritizing, but what I can tell you is----
    Ms. Barragan. Thank you.
    Mr. Settles [continuing]. We have sent out more leads 
already this year than we did all of last year because that 
ten-tiered system, because we are no longer excluding any 
classes of aliens, we are looking at all 10 tiers again.
    Ms. Barragan. OK, thank you so much.
    I yield back.
    Ms. McSally. The Chair now recognizes Mr. Rogers from 
Alabama.
    Mr. Rogers. Thank the Chair.
    Mr. Settles, we know in 2016 that more illegal aliens 
stayed in the United States on visa overstays than were caught 
at the Southern Border. Is it just employment that is drawing 
them? Is that what you are finding? Or what is making that 
happen?
    Mr. Settles. Sir, that is a really hard question for me to 
answer. I mean, I think I would be giving you my opinion.
    Mr. Rogers. That is what I am looking for.
    [Laughter.]
    Mr. Rogers. I hope it is an informed opinion.
    Mr. Settles. Well, I would rather get back to you on that 
if I could? I think I would just be speculating. I want to work 
with my team and maybe give you a, you know, a more informed 
answer.
    Mr. Rogers. OK. When these individuals are caught and 
removed are exit interviews done? Are they debriefed?
    Mr. Settles. That does occur, especially if they are 
somebody that is of concern. We are gonna work with ERO and we 
are going to talk with them, try to find out information and 
that is what criminal investigators do.
    Mr. Rogers. I mean, every overstay is a concern. So I would 
hope that when we do apprehend somebody who has overstayed and 
we remove them that somebody is asking them a few questions 
before we send them out home.
    Mr. Settles. Absolutely, I mean, that is part of presenting 
the case. If it is a criminal case we are going to have to have 
interviewed them and we are going to have to, you know, produce 
evidence. The same if it is an administrative arrest and we are 
taking them in front of an immigration judge.
    Mr. Rogers. OK. It seems staying in the United States on an 
expired visa is the lowest risk and highest rewards way to live 
in the United States illegally. I think one way to make illegal 
labor less profitable and less appealing is to put a fee on 
money sent back to their home country by these illegal workers. 
I have introduced a bill to do that, tax remittances or put a 
fee on remittances.
    But other than that, what current legal mechanism do you 
have in ICE or CBP that can reduce the appeal of overstays? I 
know you talked a little while ago, Mr. Dougherty, about the 
interviews that you could do on the front end, but what legal 
mechanisms do you have to really chill their enthusiasm for 
coming over here and overstaying?
    Mr. Dougherty. Well, I will touch on it briefly and then I 
can pass it to my colleague with CBP. But, I mean, depending on 
how long they overstay that makes them ineligible for applying 
or getting a visa again. It could be 3 years or 10 years.
    It also limits their ability to apply for a visa anywhere 
other than their home country, which can be really difficult. 
So there are mechanisms, and then they face detention, you 
know, removal, so----
    Mr. Rogers. But not in this country they hadn't been. My 
recollection is from about 10 or 11 years ago that when folks 
come here on these visas, particularly if it is a temporary 
work visa or a student visa that they are issued a Social 
Security card. Is that still the practice?
    Mr. Settles. I can't--that happens in some cases. People 
are able to get Social Security cards, but it is an individual 
and I think it has to do with--I would just rather get back to 
you on that answer, if I could?
    Mr. Rogers. If you would? My recollection is that we 
require it if they are going to be here as a student or working 
that they have to get a Social Security I.D. number. So if you 
would check to see if that is still the case and get back with 
me I would appreciate that.
    Mr. Settles. Yes, sir.
    Mr. Rogers. With that I yield back, Madam Chair.
    Ms. McSally. Thank you.
    The Chair now recognizes Mr. Correa from California.
    Mr. Correa. Thank you, Madam Chair. My apologies for 
running a little bit late. I was caught up on the floor, but I 
am going to ask a question that hasn't been asked before.
    People come in on temporary visas from Mexico. When you 
return you are not actually required to collect them at the 
border? Is that correct? Or is it a process to collet those?
    Mr. Wagner. They are provided a paper I-94 if they cross 
through the land border.
    Mr. Correa. That is correct.
    Mr. Wagner. They are supposed to hand that back in at the 
end of their stay, but they are multiple entries so they can 
use them for multiple entries and not hand it in.
    Mr. Correa. So how do you account in terms of guesstimating 
folks that are still here versus those that are not given that 
they may be handed in versus not returned when they exit the 
country?
    Mr. Wagner. So with the land border what we look at is what 
we call subsequent arrivals. So if someone has a border 
crossing card, a Mexican citizen with a visa----
    Mr. Correa. Yes.
    Mr. Wagner [continuing]. You know, 85 percent of those 
travelers cross the border again within 30 days.
    Mr. Correa. OK.
    Mr. Wagner. Obviously they left if they can cross again. If 
you push that out to 6 months, 95 percent of them cross again 
within 180 days. So right now that is the best indicator we 
have of what percentage might be overstaying or not crossing 
the border again.
    Mr. Correa. So you have got essentially a guesstimate, a 
algorithm, so to speak, to try to guesstimate how many folks 
actually are returning and how many are not.
    Mr. Wagner. True because we do not have the exit collection 
process on the land border.
    Mr. Correa. OK. Any thoughts on a collection process? I 
guess an even more important question is how important is it to 
really have that, you know, collection process? Are we going 
after an issue that is significant?
    I say that to you because I have had many relatives that I 
go pick them up at Tijuana. They get the permit, come over, and 
when you exit there is nobody really there to take the card. It 
is really an issue or not to me because, you know, other than I 
tell them, you know, let's find somebody to give this card to, 
otherwise you may be accused of overstaying your time here.
    So the question is, is it really an issue? No. 2, if it is 
an issue are we going to move forward to create a process to 
collect these cards?
    Mr. Wagner. Correct, so we don't have the infrastructure or 
the personnel there to do that to the extent that we do in-
bound. You know, there are not facilities built. There is not 
infrastructure. It was never designed to control the 
departures.
    You know, we can do enforcement work and we can do targeted 
examinations of people, but to do it on a wholesale process, 
you know, we are not equipped or built to do that.
    There is some work with perhaps the Mexican government we 
can do about exchanging information that we are discussing with 
the Mexican government in Tijuana about potentially looking at 
pedestrians and exchanging some of the information, similar to 
what we have done with Canada. That an entry into Canada can 
serve as a departure record from the United States.
    We are exchanging non-Canadian data with that right now for 
the third-country nationals. So I think there are possibilities 
to help Mexico build out their infrastructure to do that, or 
the U.S. Government can build it on our side. But again, there 
is no infrastructure there now or personnel to do that.
    Mr. Correa. Thank you, Mr. Wagner. I was just going to say 
that that is an excellent idea given the cost of the 
infrastructure and the fact that on both sides of the border 
you are having a lot of infrastructure being built right now.
    I believe occasionally when you do cross the border into 
Mexico, the Mexican authorities do check you out to see who you 
are and what you have got in your car and so on and so forth. 
So I encourage you to continue to try to seek some similar 
relationships, cooperation as we have with Canada with Mexico. 
I think that is a win-win strategy.
    Thank you very much, and with that, Madam, I yield the 
remainder of my time.
    Ms. McSally. The gentleman yields back.
    We are going to start a second round, and I now recognize 
myself for 5 minutes.
    I want to follow up on the carrots and sticks related to 
trying to change some of the behavior here. When we look at the 
penalties that could be a potential deterrent, if you could 
stay 364 days and that only means that once you are told to 
leave or if you leave on your own you just can't come back for 
3 years.
    If you stay a little bit longer you can't come back for 10 
years. Coming over the land border illegally a second time is a 
felony. Do you feel, Mr. Wagner, that the penalties are 
appropriate to deter this action? Then second, as I look at 
some of these charts I think about, like, carrots and sticks to 
countries.
    I mean, we have some countries on here that have rates of 
75.21 percent overstays, from Eritrea. Let us see, and some of 
them are in the high 20's and the 40's, 56.86 for Afghanistan, 
67 percent from Liberia.
    I mean, if 77 percent of the individuals that are given a 
visa are overstaying, are we coordinating with the State 
Department to have some country-specific sticks in order to 
deter continuing behavior like this, because obviously it is 
not working?
    Mr. Wagner. Yes, so we have provided the overstay report to 
the Department of State. We have, you know, had that discussion 
with them. I know they have shared it with their posts, those 
kinds of numbers.
    I know we have shared it with our field locations that, you 
know, these are the countries that have very high overstay 
rates, so, you know, scrutinize travelers with those passports 
a little closer with that in mind that they have very high 
overstay rates.
    Ms. McSally. But, I mean, there is no--obviously the State 
Department is not here, but there needs to be other tools, from 
my view, of, like, hey, country X, get your act together. Or 
you are no longer going to be granted visas because if you are 
having a 70-plus percent overstay rate, I mean, there has got 
to be some sort of carrot.
    There are other diplomatic and economic tools for them to 
actually tighten up their process at the country level? How are 
the individual penalties? What do you think about the 
individual penalties?
    Mr. Wagner. I mean, we enforce them as the legislation 
permits. I mean, to----
    Ms. McSally. Right. No, I know. I am just asking----
    Mr. Wagner [continuing]. The fullest extent that we can.
    Ms. McSally [continuing]. If you think it is an appropriate 
deterrent or if anybody has got any thoughts on that? Obviously 
with 700,000-plus people blowing them off, you know, perhaps we 
need to be looking into that here to tighten those up.
    Mr. Settles, I want to talk about resources. You said you 
don't have adequate resources. How many HSI agents are there 
total and how many are focused on visa overstays, what subset?
    Mr. Settles. Thank you. The numbers change and we are 
trying to hire. We have about 6,500 agents. For the last few 
years we have dedicated I think somewhere between 600,000 and 
700,000 hours toward overstay enforcement, if that gives you--
because that is how we measure.
    Ms. McSally. How is that as a percentage of total man-
hours? I am just trying to get a sense of percentage of effort.
    Mr. Settles. I would have to take it back. I think it is--
--
    Ms. McSally. OK.
    Mr. Settles [continuing]. Around 3 percent.
    Ms. McSally. OK. So I am hearing that you feel you need 
additional agents and resources to be able to adequately 
enforce this and prioritize it.
    Mr. Settles. Well, yes, ma'am. I mean, obviously with more 
we could do more. I mean, but I would say that we are currently 
going through a, you know, a big hiring push, which is very 
good for us. That is something we are working on right now.
    We have a task force. We are doing these super one-stops, 
you know, where the potential agent candidates come in and it 
is almost like the military back when they had, you know, when 
you were called up for the draft.
    You go through each phase all at the same time from an 
interview and a physical and doing the physical fit test. That 
moves us along a lot quicker, so we are doing those throughout 
the country.
    Ms. McSally. Thanks. I yield back.
    The Chair--you have a second round? OK, anybody else?
    Mr. Correa?
    Ms. Barragan? OK.
    Ms. Barragan. Yes, I would like to go back to Mr. Settles. 
You had mentioned that you have a 10-tier system. You said you 
are now looking at all 10 tiers. Give me an example of what is 
at the 10th tier?
    Mr. Settles. I don't have it specifically in front of me, 
but it may be an individual from a country that has some level 
of concern but not as high because of travel patterns where we 
have identified that people have traveled for foreign fighters.
    Ms. Barragan. OK.
    Mr. Settles. Then other criteria like age and----
    Ms. Barragan. You say you are now looking at all 10 tiers. 
Does that mean because there are no longer priorities set in 
the Department and they have been expanded? Or why is it that 
you are now looking at all 10 tiers?
    Mr. Settles. Yes, ma'am, that is correct because we are no 
longer excluding any classes of individuals. Our guidance now 
is to enforce the law across the books.
    Ms. Barragan. Well, it sounds like you have a resource 
issue and now without the priorities it is making it even 
harder for your Department. Is that accurate?
    Mr. Settles. Yes and no. I mean, we have already sent out 
more leads than we did last year, which is a very good thing. 
But I would say the year before we had sent out almost twice as 
many leads and the subsequent years as well.
    So it creates a resource issue and we are hiring more 
people. But it also, I think, because again, that whole 10-tier 
and working in coordination with other agencies like the FBI 
and the intelligence community to figure out the people and the 
travel patterns that would be most likely to be of concern to 
us.
    Ms. Barragan. So how do we know then if you are looking at 
all 10 tiers, let's say you are working on somebody who is in 
the ninth tier. That means that somebody in the first tier may 
not be addressed basically because somebody is working on that 
ninth-tier person.
    Mr. Settles. No, I mean, every day we are prioritizing and 
triaging and moving and so, you know, priority one through 
fours we are going to get to before we get to the ninth. Like I 
say, we get about 3,000 leads a day and we have about 130 
agents and analysts crunching through them as fast as they can.
    Ms. Barragan. There, you know, all the reports about there 
are going to be 10,000 new ICE agents hired. Do we know how 
many of those will be allocated to overstays?
    Mr. Settles. I do not have any visibility on that, no. I 
think like most of our priorities we have quite a few that 
will, you know, it will move back and forth depending on 
whatever the threat is at the time.
    Ms. Barragan. OK. There was also my understanding was that 
the OIG report indicated that some of the investigators were 
not properly trained to access the systems. Why is it they were 
not properly trained?
    Mr. Settles. Well, I guess what I would say is, like I 
mentioned in my oral testimony, I mean, that is of concern to 
me as well. If even one agent feels that way that is not 
acceptable. So we are taking steps to change that.
    But I can say I ran 10 field offices in northern California 
and I just finished running seven in Virginia and the District 
of Columbia, and I never had that complaint from any of the 
agents in those offices that they didn't feel they were 
trained.
    But they did sometimes feel like, you know, rightfully so, 
I think we all feel like we have a lot of passwords and we have 
a lot of different systems that we have to navigate.
    If you don't do them every day--so if you are a, you know, 
if you are somebody that works in child exploitation or money 
laundering or drug smuggling or weapons smuggling and you are 
taking up some leads in this area and there are some databases 
with USCIS that you haven't used before or only use a couple 
times a year, you know, we would love for the technology to get 
to a single sign-on, you know, across the board.
    You know and Federated searches. But so I think--does that 
answer your question?
    Ms. Barragan. Yes. Thank you.
    Mr. Wagner. if I may, what is CBP doing to ensure the 
servers and the data, the biometrics data, is not compromised 
under a cyber attack?
    Mr. Wagner. So, I mean, I would have to defer to our I.T. 
staff to provide the, you know, the technical answer on that. 
But, you know, the data is housed within a CBP system. We will 
be using some cloud space technology to store that data, but 
what we will do is what is called templatizing the photographs.
    So it takes your picture, it turns it into basically ones 
and zeroes and numbers. That is put into the cloud space where 
the matching occurs. So if somebody were to hack that all they 
would get was just a bunch of numbers.
    When that match is made the data comes back into the CBP 
database then where it is secured.
    Ms. Barragan. All right, thank you.
    I yield back.
    Ms. McSally. Thanks. One last question, Mr. Wagner, and I 
started it at the end of my first round, which is you said you 
had enough funding for what you are planning to do for the 
remainder of fiscal year 2017 and 2018. Do we have a sense of 
what the total cost of the facial recognition to be rolled out 
to all land--sorry, air and sea ports and the time line? Should 
we expect to get a plan on how that is all going to happen from 
CBP?
    Mr. Wagner. So we believe there is enough funding there now 
to do the facial recognition at the air and sea locations.
    Ms. McSally. At all?
    Mr. Wagner. All of it----
    Ms. McSally. OK.
    Mr. Wagner [continuing]. Over, you know. Now, depending on 
how the final deployment goes and what some of the stakeholders 
take on or provide versus what the Government will provide, if 
CBP has to provide staff at each one of the 5,000 departure 
gates, that funding would not be enough.
    If we can work with TSA and consolidate some of the 
adjudication of the mismatches in a centralized place, maybe 
that is an easier way to do it then partnering with the 
airlines with the final confirmation at the gate. That brings 
the staffing cost way down dramatically.
    So there is still a lot of work to do on that on exactly 
how that would be deployed. So, you know, we will have to 
follow up with you as this progresses and to see what the 
funding will cover. The idea is, of course, spend as little of 
the funding as possible and make that money work for what we 
have to do.
    Ms. McSally. Great, thank you. I want to thank the 
witnesses for your valuable testimony on this very important 
topic. I want to thank the Members for their questions.
    Members of the committee may have some additional questions 
for the witnesses. I will ask you to respond to these in 
writing. Pursuant to committee rule VII(D) the hearing record 
will be open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 3:26 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
